<html>
<title> - SECURING THE NATION'S PORTS AND MARITIME BORDER</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
SECURING THE NATION'S PORTS AND MARITIME BORDER--A REVIEW OF THE COAST 
              GUARD'S POST-9/11 HOMELAND SECURITY MISSIONS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON BORDER AND

                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 14, 2011

                               __________

                           Serial No. 112-31

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
72-241                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
                Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                Candice S. Miller, Michigan, Chairwoman
Mike Rogers, Alabama                 Henry Cuellar, Texas
Michael T. McCaul, Texas             Loretta Sanchez, California
Paul C. Broun, Georgia               Sheila Jackson Lee, Texas
Ben Quayle, Arizona, Vice Chair      Brian Higgins, New York
Scott Rigell, Virginia               Hansen Clarke, Michigan
Jeff Duncan, South Carolina          Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)

                      Paul Anstine, Staff Director
                   Diana Bergwin, Subcommittee Clerk
            Alison Northrop, Minority Subcommittee Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Candice S. Miller, a Representative in Congress 
  from the State of Michigan, and Chairwoman, Subcommittee on 
  Border and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Henry Cuellar, a Representative in Congress from 
  the State of Texas, and Ranking Member, Subcommittee on Border 
  and Maritime Security..........................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     6

                                Witness

Admiral Robert J. Papp, Jr., Commandant, United States Coast 
  Guard:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10

                                Appendix

Questions Submitted by Chairman Candice S. Miller of Michigan....    35
Questions Submitted by Chairman Peter T. King of New York........    36
Questions Submitted by Hon. Michael T. McCaul of Texas...........    38
Question Submitted by Hon. Benjamin Quayle of Arizona............    40
Questions Submitted by Hon. Scott Rigell of Virginia.............    40
Questions Submitted by Hon. Jeff Duncan of South Carolina........    41
Question Submitted by Ranking Member Henry Cuellar of Texas......    43
Question Submitted by Ranking Member Bennie G. Thompson of 
  Mississippi....................................................    43
Question Submitted by Hon. Loretta Sanchez of California.........    43
Question Submitted by Hon. Sheila Jackson Lee of Texas...........    44


SECURING THE NATION'S PORTS AND MARITIME BORDER--A REVIEW OF THE COAST 
              GUARD'S POST-9/11 HOMELAND SECURITY MISSIONS

                              ----------                              


                         Tuesday, June 14, 2011

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Miller, King, Cuellar, Sanchez, 
Jackson Lee, Clarke, and Thompson.
    Mrs. Miller. The Committee on Homeland Security 
Subcommittee on Border and Maritime Security will come to 
order.
    The subcommittee is meeting today to hear testimony from 
Admiral Robert Papp who is the commandant of the U.S. Coast 
Guard, to review the Coast Guard's post-9/11 homeland security 
mission, and I will introduce the admiral after the opening 
statements.
    But I certainly want to tell him how honored we are that he 
is here at our subcommittee today. We are just delighted that 
he is here, not only representing himself, of course, but all 
the brave men and women of the Coast Guard in the United 
States. We will make a more formal introduction shortly.
    For most of this year, this subcommittee has appropriately 
focused on securing the Nation's borders, both at and between 
the ports of entry. But the border isn't just the desert or 
along the Mexican border, or even along the Northern border.
    Our border is also liquid. It is in the Great Lakes between 
the United States and Canada. It is along the Pacific. It is 
along the Atlantic. The U.S. Coast Guard is missioned with 
securing those borders.
    I want to focus on a very often overlooked, but just as 
vital issue and that is port and maritime security, and the 
changing role of the U.S. Coast Guard since September 11.
    As a lifetime voter, I have a very deep affinity for the 
Coast Guard and the fantastic work that they do each and every 
day, 
24/7, whether it is just routing boating safety missions, 
search and rescue, or keeping our vital shipping lanes clear of 
ice in the winter and helping commerce flow to our lakes.
    I often say that if it is wet, cold, and impossible, send 
in the Coast Guard and they will get it done.
    So, again, let me thank you and the men and women of the 
Coast Guard for their service to this Nation.
    The Coast Guard's motto is Semper Paratus, Latin for 
``Always ready.'' Since 1798, the Coast Guard has lived up to 
its motto, fighting alongside the other branches of the 
military in this Nation's conflicts, even today.
    Men and women of the Coast Guard serve off the coast of 
Iraq, and help to combat piracy in the Gulf of Aden.
    Even before 9/11, the Coast Guard had its hands full with 
its 11 statutory missions like marine safety, ice breaking, 
search and rescue, and aids to navigation.
    But since September 11, we have loaded up the Coast Guard 
with additional responsibility and asked them specifically to 
focus resources on port and maritime security.
    This committee has jurisdiction of the Coast Guard as it 
relates to port and maritime security and today we will conduct 
our oversight on how the Coast Guard has been additionally 
missioned and if they have been adequately and appropriately 
funded and resourced.
    In fact, the number of hours spent on ports, waterways, and 
coastal security has increased by more than 900 percent since 
9/11.
    Admiral Papp has taken a look at these figures and earlier 
this year he reported that the service may need, as he said, to 
reduce the number and range of capabilities added since 9/11 
until properly resourced.
    This Congress must appreciate the candor in which the 
admiral made these comments and we want to hear from him today, 
his thoughts on these resources and how we are doing. I know 
that this Nation has given the Coast Guard a tremendously 
difficult job. This Congress understands that you can't be 
everywhere at once.
    The Coast Guard must find ways to balance its security 
role, without subtracting from its core competencies.
    However, at the same time, this committee is laser-focused 
on securing the Nation and our borders. The Coast Guard's role 
in securing the maritime environment is absolutely critical. We 
are very interested to hear comments from the admiral, 
providing us with your comprehensive vision for the security 
missions of the Coast Guard.
    As I mentioned in the letter the Chairman and I sent 
earlier, we are also concerned about the status of the National 
Security Cutters, which will be the bulwarks of our homeland 
defense on the waters.
    In a time of budget constraints, we have to be mindful, of 
course, of the cost to acquire these advanced cutters, but we 
also cannot sacrifice tomorrow's needed capabilities due to 
short-term thinking.
    I know that the older cutters are costing us far too much, 
both in terms of less mission readiness, lost operational 
hours, and higher maintenance costs, and we have to take those 
costs into account when making long-term acquisition decisions.
    Further, if I could be blunt, I find it, probably 
unacceptable would be the word, that major Coast Guard law 
enforcement cutters have an average age of more than 40 years, 
while Navy ships have an average age of only 14.
    Not to pick on the Navy. We want to make sure they are 
resourced, but we need to be cognizant of this fact.
    We ask the Coast Guard to do many of the same missions as 
the Navy, in many of the same waters. Thus, we in Congress need 
to ensure that the Coast Guard, again, has the resources and 
assets it needs to safely carry out its operations.
    Investments need to be made in the aging cutter fleet. This 
committee is especially interested in hearing on the trade-offs 
required to ensure that the Coast Guard has the capabilities 
required to secure our maritime borders, interdict drugs, and 
perform other statutory missions of the Coast Guard.
    The Coast Guard's Deployable Operations Group is a key 
example of the heightened role that maritime and port security, 
and specialized maritime security teams, play in the Coast 
Guard's post-9/11 mission set.
    As you know, this committee strongly supports the Maritime 
Safety and Security Team, who deploy to provide security and 
protection in a maritime environment, and the advanced Maritime 
Security and Response Team that specializes in counterterrorist 
tactics, and is designed as a first-responder to marine 
terrorist situations.
    The Coast Guard has recently begun a stem-to-stern review 
of the needed capabilities from both of these teams and other 
deployable teams. This review passes the common-sense test.
    One of the more interesting and valuable programs that 
leverages their partnership, I think, is the Ship Rider 
Program. That is something that I follow very closely since the 
beginning of this integrated law enforcement program, with the 
first pilot in 2006.
    I think it is just a very valuable tool to make our border 
more secure between the United States and our Canadian 
partners. It has worked very, very well in the Great Lakes 
region.
    Again, I want to thank the commandant for agreeing to 
appear today. We certainly look forward to hearing your 
thoughts on all of this, and how we can assist the Coast Guard 
to better secure our Nation's ports and maritime border.
    The Chairwoman now recognizes the Ranking Minority Member 
of the subcommittee, the gentleman from Texas, Mr. Cuellar, for 
any statements he may have.
    [The statement of Chairwoman Miller follows:]
           Prepared Statement of Chairwoman Candice S. Miller
    I now recognize myself for an opening statement. For most of this 
year, this subcommittee has appropriately focused on securing the 
Nation's borders, both at and between the ports of entry, but the 
border isn't just in the desert, or along the Mexican border, or even 
along the Northern Border. Our border is also liquid--in the Great 
Lakes between the United States and Canada--its along the Pacific its 
along the Atlantic and the U.S. Coast Guard is missioned with securing 
those border. I want to focus on an often overlooked, but just as vital 
issue--port and maritime security, and the changing role of the U.S. 
Coast Guard since September 11.
    Being a lifetime boater, I have a deep affinity for the Coast Guard 
and the fantastic work they do every day, whether it is a routine 
boating safety mission, search and rescue, or keeping our vital 
shipping lanes clear of ice in the winter and helping commerce flow 
through our lakes.
    I often say that if it is cold, wet, and impossible, you send in 
the Coast Guard--so let me thank you and the men and women of the Coast 
Guard for their service to this Nation. The Coast Guard's Motto is 
Semper Paratus, Latin for ``Always Ready'', and since 1798, the Coast 
Guard has lived up to its motto, fighting alongside the other branches 
of the military in this Nation's conflicts. Even today, men and women 
of the Coast Guard serve off the coast of Iraq, and help to combat 
piracy in the Gulf of Aden.
    Even before September 11, the Coast Guard had its hands full with 
its 11 statutory missions like marine safety, ice-breaking, search-and-
rescue and aids to navigation. But, since September 11, we have loaded 
up the Coast Guard with additional responsibilities and asked them to 
specifically focus resources on port and maritime security.
    This committee has jurisdiction of the Coast Guard as it relates to 
port and maritime security and today we'll conduct oversight on how the 
Coast Guard has been additionally missioned and if they have been 
appropriately funded.
    In fact, the number of hours spent on Ports, Waterways, and Coastal 
Security has increased by more than 900% since September 11.
    Admiral Papp has taken a look at these figures and earlier this 
year reported that the service may need to ``reduce the number and 
range of capabilities added since 9/11, until properly resourced.''
    This Congress must appreciate the candor in which the Admiral made 
these comments and we want to hear from him today--his thoughts on 
resourcing.
    I know that this Nation has given the Coast Guard a tremendously 
difficult job, and this Congress understands that you cant be 
everywhere at once--the Coast Guard must find ways to balance its 
security role without subtracting from its ``core competencies.''
    However, at the same time, this committee is laser-focused on 
securing the Nation and the Coast Guard's role in securing the maritime 
environment is critical.
    We are very interested to hear you elaborate on your comments and 
provide us with your comprehensive vision for the security missions of 
the Coast Guard.
    As mentioned in the letter the Chairman and I sent to you earlier 
this year, we are also concerned about the status of the National 
Security Cutters which will be the bulwarks of our Homeland Defense on 
our waters. In a time of budget constraints, we must be mindful of the 
cost to acquire these advanced cutters but we cannot sacrifice 
tomorrow's needed capabilities due to short-term thinking.
    I know that the older cutters are costing us far too much both in 
terms of less mission readiness, lost operational hours, and higher 
maintenance costs--and we must take those cost into account when making 
long-term acquisition decisions.
    Furthermore, to be blunt, I find it unacceptable that major Coast 
Guard law enforcement cutters have an average age of more than 40 
years, while Navy ships have an average age of only 14. We ask the 
Coast Guard to do many of the same missions, in many of the same 
waters, and thus we in Congress need to ensure that Coast Guard has the 
resources and assets it needs to safely carry out its operations.
    Investments need to be made in the aging cutter fleet, and this 
committee is especially interested in hearing your thoughts on the 
tradeoffs required to ensure that the Coast Guard has the capabilities 
required to secure the maritime borders, interdict drugs, and perform 
the other statutory missions of the Coast Guard.
    The Coast Guard's Deployable Operations Group (DOG) is a key 
example of the heightened role that maritime and port security, and 
specialized maritime security teams play in the Coast Guard's post 9/11 
mission set.
    As you know, this committee strongly supports the Maritime Safety 
and Security Teams (MSSTs) who deploy to provide security and 
protection in a maritime environment, and the advanced Maritime 
Security and Response Team (MSRT) that specializes in counter-terrorist 
tactics and is designed as a first responder to marine terrorist 
situations.
    The Coast Guard has recently begun a ``stem-to-stern'' review of 
the needed capabilities from the MSSTs, MSRT, and other deployable 
teams. This review passes the common-sense test.
    One of the more interesting and valuable programs that leverages 
our partnerships is the Shiprider program. I have closely followed the 
progress of this integrated law-enforcement program since it was first 
piloted in 2006. I am fully convinced that it is a valuable tool to 
make the border between the United States and Canada more secure.
    I want to once again thank the Commandant for agreeing to appear 
before us today, we look forward to hearing your thoughts on how we can 
assist the Coast Guard to better secure our Nation's ports and maritime 
borders.

    Mr. Cuellar. Thank you, Madam Chairwoman. I am pleased that 
the subcommittee on Border and Maritime Security is meeting 
today to discuss the Coast Guard's homeland security missions 
in the post-9/11 era.
    A little over a year ago, I visited the Coast Guard 
headquarters and met with the previous commandant, Admiral Thad 
Allen.
    We had a good discussion about the role of the Coast Guard 
in securing our Nation, both the Northern, the Southern, and 
the coast area. Also appreciate Admiral Papp joining us today 
to update the subcommittee on the Coast Guard's efforts in 
support of the Department of Homeland Security.
    As a Member of Congress representing a district along the 
Southern border, I am particularly interested in the Coast 
Guard's work on three matters related to that region of the 
country.
    First, I have been working to support the U.S. Customs 
Border Protection Office of Air and Marine's efforts to deploy 
unmanned aerial systems, UASs, along our land and coastal 
borders.
    It is my understanding the Coast Guard is working with CBP 
on the maritime barrion of the UAS. I hope to hear from Admiral 
Papp about the Coast Guard's work with the CBP Air Marine on 
this program, as well as what work it may be doing along with 
their colleagues in the U.S. Navy.
    Given limited Federal resources, agencies across the 
Government should do everything possible to share information, 
technology, as appropriate, and avoid the duplication of 
efforts in order to secure our country as effectively and 
efficiently as possible.
    Second as many of you know, there has been several 
incidents of violence on the Mexican side of Falcon Lake, the 
U.S. portion, which is located in my Congressional district.
    The fiscal year 2012 DHS appropriation bill, recently 
passed by the House of Representatives this last week, 
recommends that the Coast Guards have an enhanced presence on 
Falcon Lake and Lake Amistad in order to counter border 
incursions at that time.
    I believe, as a witness testified, you also testified, 
Admiral, that you also feel that there should be an increased 
presence on that. We will follow up on some questions on that.
    It is my understanding that this area is currently 
patrolled only by CBP, which is also stretched thin with its 
border security responsibilities. I am interested in knowing 
from the commandant what presence beyond ``post operations,'' 
which we know it is just a low touch, of Coast Guard currently 
has along the Southern border of the United States and how it 
would intend to fulfill the language in the appropriations 
bill, should it become law.
    Third, last week the Texas Rangers U.S. Border Patrol, 
Texas Fish and Wildlife, were involved in a shoot-out across 
the Rio Grande in Abram, Texas. Suspected drug runners shot 
across the river from Mexico at U.S. law enforcement officials.
    Last year, Coast Guard Authorizations Act of 2010, now 
which is Pub. L. 111-281, included a provision that I authored 
in which the Coast Guard, should prepare a mission requirement 
analysis for the navigable portions of the Rio Grande.
    This analysis was due to Congress no later than 90 days 
after the date of enactment, which was October 15, 2010. Out of 
courtesy to the commandant, we contacted your Congressional 
affairs person, just to give you a heads up, that I was going 
to be asking you, why you all missed this particular deadline, 
which is statute. It was specifically directed at your office.
    Specifically, this provision calls that the mission 
requirement analysis is meant to assess Coast Guard's mission, 
assets, personnel assigned to the Rio Grande River.
    As you know, the Rio Grande is international waters. It 
might not be blue waters, as I think some of you folks call it 
the brown waters, but nevertheless, it is international waters.
    Included with the analysis or requirements to identify what 
will be needed for the Coast Guard to increase the operations, 
migrant interdiction operations, drug interdiction operations, 
everything within your 11 points of your mission itself, I hope 
to hear from Admiral Papp about the status of this analysis. Or 
if you haven't gotten started, just tell us that you are going 
to get started on it.
    Ultimately, we are talking about narcotics, undocumented 
aliens, and those who might wish to do us harm.
    We know that people will take the route that they perceive 
to offer the best opportunity to enter the country. If we 
secure the land borders, people will try to come across 
maritime borders and vice versa.
    We are only as strong as our weakest link, which is why it 
is imperative that we support the work of the Coast Guard and 
the sister agencies within DHS.
    In closing, I would like to note that more than 40,000 
active-duty members of the Coast Guard, supported by thousands 
more reservists and civilians, do our country proud every day. 
We thank you for that work that you all do, Commandant.
    We thank them, their families, for the service to our 
country. I appreciate Admiral Papp for joining us here today. I 
look forward to your testimony.
    Thank you, Madam Chairwoman. I yield back the balance of my 
time.
    Mrs. Miller. I thank the gentleman.
    The Chairman will now recognize the Ranking Member of the 
full committee, the gentleman from Mississippi, Mr. Thompson, 
for his opening statement.
    Mr. Thompson. Thank you very much, Madam Chairwoman.
    I appreciate you calling this hearing. I also appreciate 
getting the chance to chat in the rear with Admiral Papp.
    It has been about a year, a little bit more than a year, 
since we chatted. But welcome.
    This year, we will mark the 10th anniversary of the 
terrorist attack of September 11, 2001. That event changed our 
Nation, and in the process changed the shape of the Federal 
Government.
    With the creation of the Department of Homeland Security, 
numerous disparate agencies, including the Coast Guard, were 
brought together to help secure the country.
    In my Congressional district alone, the Mississippi River, 
people think of the Coast Guard for its safety and security, 
and search and rescue missions, particularly during terrible 
flooding like what we experienced this year.
    But in the wake of 9/11, the Coast Guard's homeland 
security missions have become more important than ever.
    The Coast Guard's work securing our ports, waterways, and 
coast is an integral part of America's homeland security. With 
that in mind, I am concerned about the lack of adequate funding 
for several vital Coast Guard programs and initiatives in the 
recently passed DHS appropriations deal.
    For example, the deal cuts funding for Coast Guard 
acquisition and construction by $270 million below the 
President's request. This is unacceptable.
    The Coast Guard prides itself as being always ready, for 
all hazards and all threats and carrying out its 11 statutory 
missions. However, without adequate resources, it will be hard 
pressed to meet that enormous challenge.
    Congress must ensure that the Coast Guard has the funding 
necessary to fulfill its responsibilities on behalf of the 
American people.
    Also, I would be remiss if I did not touch on the Coast 
Guard's role in the Transportation Worker Identification 
Credential, or TWIC Program. Along with the Transportation 
Security Agency, the Coast Guard is responsible for 
implementing the TWIC Program.
    The program has been plagued with problems from its 
inception.
    It is my hope that the long overdue TWIC readers will be 
deployed as quickly and efficiently as possible, so that full 
security benefits of this program can soon be realized.
    America's maritime workers have done their part by 
obtaining TWICs. It is now time for DHS to deliver as well.
    I have had an opportunity, as I have said, to meet with 
Admiral Papp at the Coast Guard headquarters, and have seen the 
good work of the men and women of the U.S. Coast Guard first-
hand.
    Today, I hope to hear about the commandant's commitment to 
ensuring the Coast Guard fulfills its homeland security 
missions with support from Congress.
    Again, I thank you, Admiral Papp, for joining us today. I 
look forward to a robust dialogue about the Coast Guard's role 
in the security of our Nation.
    Thank you. I yield back, Madam Chairwoman.
    Mrs. Miller. I thank the gentleman for his comments. Other 
Members of the committee are reminded that any opening 
statements they may have may be submitted for the record.
    Our witness today, our only witness today, which I think is 
very appropriate, is Admiral Papp, who is, of course, the 
commandant of the U.S. Coast Guard, which is the Nation's 
oldest continuous sea-going service and one of the Nation's 
five armed services.
    As a flag officer, Admiral Papp served as commander, Coast 
Guard Atlantic Area, where he was operational commander for all 
U.S. Coast Guard missions within the eastern half of the world 
and provided support to the Department of Defense.
    Admiral Papp has served in six Coast Guard cutters, 
commanding four of them, including the Eagle. He also 
previously served as the commander of the Ninth Coast Guard 
District, with responsibilities for Coast Guard missions on the 
Great Lakes and the Northern border.
    Again, we want to thank the commandant for joining us 
today.
    The floor is yours, sir. We certainly look forward to your 
testimony and the opportunity to question you.

 STATEMENT OF ADMIRAL ROBERT J. PAPP, JR., COMMANDANT, UNITED 
                       STATES COAST GUARD

    Admiral Papp. Well, thank you, Chairman Miller. Good 
morning, once again, Ranking Member Cuellar and full committee 
Ranking Member, Mr. Thompson, good to see you, sir, and all the 
Members of the subcommittee.
    Thank you for the opportunity to appear here today and for 
your unwavering support for our Coast Guard.
    It has always been a pleasure for me to come up here to 
talk about the many great things our service is doing. It is my 
great honor and privilege to lead and represent the great men 
and women of the Coast Guard.
    But it is also my responsibility and an obligation to my 
people to inform you of those things that we are unable to do, 
or lack the resources to do, and to candidly inform you of the 
challenges that we face in order to secure your support.
    America is a maritime Nation. Ninety percent of our goods 
arrive by or are shipped by sea. These same waters that 
facilitate commerce and stimulate the economy, also offer 
routes to our country for illegal activities, such as drugs, 
and illegal migrants, or security threats.
    Additionally, the activities of man, oil spills, dumping, 
overfishing pose threats to the seas themselves.
    The safety and security of our maritime environment impacts 
the daily lives of every American, regardless of whether they 
live on or near the water.
    Maritime security is not a new mission for the Coast Guard. 
When our fledgling Nation first confronted these challenges in 
the 18th Century, the first Secretary of the Treasury, the 
father of the Coast Guard, Alexander Hamilton, called for the 
construction of 10 small armed cutters to serve as, as he said, 
``useful sentinels of the law.''
    Now, 220 years later, the men and women of today's Coast 
Guard still work determinedly to safeguard our Nation's 
maritime interests overseas, on the high seas, along our 
coasts, and our ports.
    They will use our expertise to improve practices, develop 
and leverage partnerships, and to use risk-based decision 
making to apply the full spectrum of Coast Guard resources and 
capabilities.
    Just as my predecessors have done for over 220 years, I am 
strongly committed to the Nation's maritime security. For the 
Coast Guard, it is job No. 1.
    But I now lead a service that is stressed by increased 
activities and responsibilities during a period of constrained 
budgets, combined with aging ships, aircraft, boats, and 
infrastructure. The Coast Guard cannot be all things to all 
people, nor can it be everywhere, all the time.
    Now, in order to carry out our strategy, we apply a layered 
security system that leverages our unique maritime security 
authorities' capabilities and partnerships to mitigate risk and 
maintain security in our domestic ports, on the high seas, and 
in the ports abroad.
    This begins in foreign ports, where Coast Guard conducts 
assessments to evaluate the effectiveness of port security and 
antiterrorism measures. Since its establishment in 2004, the 
International Port Security Program has assessed ports in 153 
countries, visiting over 900 individual ports and facilities.
    In cases where effective antiterrorism measures are not in 
place, conditions of entry are placed on vessels, requiring 
them to implement additional security measures before they 
arrive in our ports.
    Offshore, a capable major cutter fleet provides a 
persistent presence that can respond to potential threats, 
enforce international domestic laws, launch boats and aircraft 
in adverse sea conditions, and maintain a presence throughout 
all weather conditions.
    This is the layer of security that causes me the greatest 
concern. Our fleet of major cutters has reached block 
obsolescence and is increasingly expensive to maintain. They 
are unreliable and less effective.
    But there is encouraging news. The first two National 
security cutters are operational. The third will be delivered 
this year. A fourth has been awarded, and the fifth has been 
funded.
    We must expedite the funding of the remaining three 
National Security Cutters for a minimum of 8 total.
    The recent operations of the cutter, Bertholf, our first 
National Security Cutter, highlights the exceptional 
capabilities of our newest class of major cutters. During 
Bertholf's recent patrol near Alaska, they encountered 20-foot 
seas and wind in excess of 60 knots, with temperatures below 
freezing. Yet the crew was still able to launch and recover 
their helicopter and small boats.
    Cutter Bertholf previously conducted patrols in the Eastern 
Pacific, where they successfully engaged the full spectrum of 
elicit trafficking threats: Self-propelled, semi-submersible, 
and semi-submersible vessels and fully submersible vessels, 
small boats, high speed multi-engine, go-fast vessels, and 
fishing vessels.
    In one instance, the Bertholf was able to use both their 
small boats, and the deployed helicopter, and the maritime 
patrol aircraft to successfully disrupt three small high-speed 
boats detected simultaneously in the dark of night.
    Well before ships arrive in our ports, screening and 
targeting operations provide critical information regarding 
these vessels and embarked crews, passengers, and cargo.
    As a member of the Intelligence Committee, the Coast Guard 
collects, analyzes, fuses, and disseminates intelligence 
information from our Maritime Intelligence Fusion Centers, to 
provide direct intelligence support to our Coast Guard 
operators in the field and in the ports and offshore.
    As vessels arrive closer to the United States, they must 
submit a notice of arrival. The Intelligence Coordination 
Center evaluates the information for potential threats.
    If vessels pose a risk, the Maritime Operational Threat 
Response Plan is activated, and the interagency informed.
    To engage potential threats approaching our coast, the 
Coast Guard helicopters and coastal patrol boats provide the 
ability to monitor, track, interdict, and board vessels.
    While maritime security is a shared responsibility, 
requiring international and domestic coordination throughout 
all stages of the supply chain, it is most evident to the 
public when you look at our ports.
    In our ports, the Coast Guard, along with our Federal, 
State, local, and Tribal partners, working in concert with port 
stakeholders, patrol our waters and critical infrastructure, 
conduct vessel escorts, and inspect vessels and facilities.
    The Coast Guard's approach to liquefied natural gas 
shipments that arrive from Yemen highlights the concept of 
layered security and risk-informed decision making. The Coast 
Guard collaborates with stakeholders to implement enhanced 
security measures that are placed upon each LNG vessel 
overseas, transiting to the United States.
    Progress of these ships is monitored as they transit. 
Furthermore, enhanced security measures are applied, including 
monitoring of crews using biometric identity verification.
    Working in close partnership with a number of key partner 
agencies, the Coast Guard conducts in-depth biometric and 
biographic screening of each crew member. As the vessels 
approach the United States, additional monitoring is performed 
and boarding's are conducted.
    The Coast Guard meets with Federal, State, and local 
partners as well as area maritime security committees to ensure 
risks are fully identified and mitigated before these vessels 
are escorted into port by the Coast Guard and State and local 
partners.
    The Coast Guard's Maritime Security authorities, 
capabilities, and partnerships, coupled with capable cutters, 
aircraft, and boats, all operated by highly proficient 
personnel, allow us to maximize those authorities and 
partnerships to execute layered and effective security 
throughout the entire maritime continuum from overseas to the 
critical ports within our homeland.
    We protect the country against threats from the sea. We 
protect people who use the sea. We protect the sea itself.
    Once again, thank you for this opportunity to testify. I 
look forward to answering your questions.
    [The statement of Admiral Papp follows:]
              Prepared Statement of Admiral Robert J. Papp
                             June 14, 2011
                              introduction
    Good morning Chairman Miller, Ranking Member Cuellar, and 
distinguished Members of the subcommittee. It is a pleasure to be here 
today to discuss the Coast Guard's maritime security capabilities.
    For more than 220 years, the U.S. Coast Guard has safeguarded the 
Nation's maritime interests and natural resources on our rivers and 
ports, in the coastal regions, on the high seas, and around the world. 
The Coast Guard saves those in peril and protects the Nation's maritime 
border, marine transportation system, natural resources, and the 
environment. Coast Guard men and women--active duty, reserve, civilian 
and auxiliarists alike--deliver premier service to the public. The 
Coast Guard is an adaptable, responsive, military force of maritime 
professionals whose broad legal authorities, assets, geographic 
diversity, and expansive partnerships provide a persistent presence in 
the inland waters, ports, coastal regions, and far offshore areas of 
operations. This presence, coupled with over 2 centuries of experience 
as the Nation's maritime first responder, provides tremendous value and 
service to the public.
              a layered approach to counter maritime risk
    With more than 350 ports and 95,000 miles of coastline (including 
bays, lakes, and rivers), the U.S. maritime domain is unique in its 
scope and diversity, requiring an integrated and layered approach to 
security.
    The Coast Guard leverages its unique maritime security authorities, 
capabilities, and partnerships to mitigate risk and improve security in 
our domestic ports, on the high seas, and in ports abroad. The Coast 
Guard's overarching strategy is to increase maritime border security 
through a layered security system that begins beyond the country's 
physical borders. This layered approach to security begins in foreign 
ports where the Coast Guard conducts foreign port assessments, 
leveraging the International Port Security Program, to assess 
effectiveness of port security and antiterrorism measures. Offshore, a 
capable major cutter fleet is able to respond to potential threats, 
launch boats and aircraft in adverse sea states, and maintain a 
presence through all weather conditions. This capability is critical to 
stopping threats well before they approach our shores--and the Coast 
Guard's planned fleet of National Security Cutters (NSCs) and Offshore 
Patrol Cutters (OPCs) are designed specifically to meet these 
requirements. Along with the fleet of NSCs and OPCs, Coast Guard C-130s 
and Maritime Patrol Aircraft provide broad surveillance capability 
maximizing effectiveness of the surface fleet. Well before vessels 
arrive to our ports, screening and targeting operations provide 
critical information regarding vessels, crews, passengers, and cargo 
destined for the United States. To prevent potential threats 
approaching our coasts, Coast Guard helicopters and patrol boats 
provide the ability to monitor, track, interdict, and board vessels. In 
our ports, the Coast Guard, along with our Federal, State, local, and 
Tribal partners, working in concert with port stakeholders, patrol our 
waters and critical infrastructure, conduct vessel escorts, and inspect 
vessels and facilities. The Coast Guard's mix of cutters, aircraft, and 
boats--all operated by highly proficient personnel--allow the Coast 
Guard to maximize its unique authorities to exercise layered and 
effective security through the entire maritime continuum--from overseas 
to the critical ports within our homeland.
                         international efforts
    To address threats furthest from our borders, the Coast Guard 
establishes and fosters strategic relationships with other nations and 
international forums. The International Ship and Port Facility Security 
(ISPS) Code was created by the International Maritime Organization 
(IMO) with significant Coast Guard assistance. ISPS provides an 
international regime to ensure ship and port facilities take 
appropriate preventive measures to ensure security, similar to our 
domestic regime in the Maritime Transportation Security Act. The 
International Port Security (IPS) Program places Coast Guard men and 
women in foreign ports that conduct maritime trade with the United 
States to assess the effectiveness of their antiterrorism measures and 
to verify compliance with ISPS Code. To date, the IPS Program has 
assessed more than 900 ports and facilities in more than 150 countries. 
The Coast Guard also supports the European Commission, the Organization 
of American States, the Asia-Pacific Economic Cooperation, and the 
Secretariat of the Pacific Community to reduce the number of non-
compliant foreign ports, thereby reducing and mitigating risk to U.S. 
ports. Vessels arriving to the United States from non-ISPS compliant 
countries are required to take additional security precautions, may be 
boarded by the Coast Guard before being granted permission to enter, 
and may be refused entry.
           maritime domain awareness and offshore operations
    Maritime Domain Awareness (MDA) is a diverse set of capabilities 
that support all levels (strategic, operational, and tactical) of 
decision-making. It is a continuum of maritime knowledge, from 
situational awareness through current and predictive intelligence. MDA 
is more than an awareness of ships en route to a particular port; it 
also entails knowledge of:
  <bullet> People.--Crew, passengers, owners, and operators;
  <bullet> Cargo.--All elements of the global supply chain;
  <bullet> Infrastructure.--Vital elements of the Nation's maritime 
        infrastructure, including facilities, services, and systems;
  <bullet> Environment.--Weather, environmentally sensitive areas, and 
        living marine resources; and
  <bullet> Trends.--Shipping routes, migration routes, and seasonal 
        changes.
    Effective MDA requires efficient information-sharing that demands 
coordination among numerous participants at international, Federal, 
regional, State, local, territorial, and Tribal levels of government, 
as well as with maritime industry and private sector partners.
    The Coast Guard Intelligence Coordination Center's (ICC) COASTWATCH 
program is one example of efficient information sharing. COASTWATCH 
identifies vessels of interest that may raise National security 
concerns regarding the people or cargo aboard, business practices, or 
crew or ownership associations. COASTWATCH is conducted in partnership 
with U.S. Customs and Border Protection (CBP) and the Office of Naval 
Intelligence and observes vessels of interest until their arrival at 
U.S. ports. COASTWATCH also initiated use of CBP's Automated Targeting 
System--Passenger (ATS-P). ATS-P enables real-time database checks and 
allows COASTWATCH to develop scenario-based targeting rule sets in 
order to identify suspect maritime entities. It also has the capability 
to provide information to the FBI, CBP, and the National 
Counterterrorism Center (NCTC) for persons discovered with possible 
terrorism links. For example, COASTWATCH has successfully uncovered and 
disrupted human smuggling organizations using commercial ships. In 
2010, COASTWATCH screened 71.2 million people, more than 257,000 ship 
arrivals, and generated 309 advance warning reports regarding arriving 
ships, people, or cargoes posing a potential National security or 
criminal threat.
    Close coordination and joint operations with CBP and Immigration 
and Customs Enforcement (ICE) in international programs are also 
critical. The Coast Guard participates in the Container Security 
Initiative (CSI) to ensure that all U.S.-bound maritime containers that 
pose a potential risk are identified and inspected before they are 
placed on vessels destined for the United States. CSI encourages 
interagency cooperation by developing a capacity to collect and share 
information and trade data gathered from CSI ports, strengthening 
cooperation within DHS and facilitates enhanced risk-informed decision 
making.
    The Coast Guard's major cutters and deployable forces are critical 
to the layered security approach. Major cutters are the only Coast 
Guard assets able to intercept and board threats far off-shore prior to 
entering the U.S. waters, and when necessary near the point of 
departure, in all weather conditions. The Coast Guard's planned fleet 
of NSCs and OPCs are critical to maintaining our layered maritime 
defense. Coast Guard LEDETs traveling with naval vessels are also able 
to employ their unique law enforcement authorities far off-shore. As an 
example, to date in fiscal year 2011, the Coast Guard has interdicted 
7.0 metric tons of cocaine from two self-propelled semi-submersible 
vessels--vessels specially designed to avoid detection while they 
deliver mass quantities of cocaine ultimately bound for our shores and 
streets. The most recent interdiction took place in April when the 
Cutter SHERMAN, one of our High Endurance Cutters, spotted a self-
propelled semi-submersible vessel North of the Galapagos Islands. Once 
the crew realized they had been detected, they scuttled the vessel. The 
SHERMAN recovered the crew and a considerable portion of the cocaine.
    Closer to home, we have strengthened mutual relationships with the 
Mexican Navy (SEMAR) and the Mexican Secretariat for Communications and 
Transportation (SCT). SEMAR and SCT are increasing their engagement 
with the Coast Guard and the U.S. Northern Command in education, 
training, participation in exercises and coordinated operations, along 
with intelligence and information sharing.
    At the Northern maritime border, the Coast Guard, CBP, ICE, the 
Royal Canadian Mounted Police (RCMP) and Canada Border Services Agency 
represent the core border security partnership, formalized in 2007. 
Working closely together the Integrated Border Enforcement Teams 
(IBETs) identify, investigate, and interdict individuals and 
organizations that may pose a threat to National security or are 
engaged in organized criminal activity along the Northern border. This 
effort includes 15 maritime IBET regions along the U.S./Canada Border. 
Over the past 6 years, the U.S. Coast Guard and RCMP have performed 
numerous pilot operations and developed an integrated cross-border law 
enforcement operational concept. An Integrated Cross-border Maritime 
Law Enforcement Framework Agreement between the United States and 
Canada has been signed and awaits ratification in Parliament. If 
ratified, this agreement will allow officers to perform intelligence-
driven integrated law enforcement operations in the shared maritime 
border areas.
                 maritime threat response capabilities
    The Coast Guard has developed new capabilities to address terrorist 
and weapons of mass destruction threats. Our Deployable Operations 
Group has forces capable of countering threats unique to the maritime 
environment. These deployable, specialized forces augment other Coast 
Guard forces and provide field commanders with additional capabilities.
    The Coast Guard has also established a Chemical, Biological, 
Radiological, Nuclear, and Explosives (CBRNE) program and worked 
extensively with DHS's Domestic Nuclear Detection Office and U.S. 
Special Operations Command to train and equip Coast Guard personnel to 
detect and respond to CBRNE threats. In addition, the National Security 
Cutter is designed to operate in contaminated environments.
         u.s. waters, u.s. ports, and interagency partnerships
    Leveraging our long-standing partnerships and unique maritime 
authorities and capabilities, the Coast Guard and our interagency 
partners have significantly enhanced our Nation's maritime security. 
One example of interagency cooperation and coordination is the Joint 
Harbor Operations Center located at Coast Guard Sector San Diego. 
Recognizing the multidimensional nature of the threat and the 
challenges of maintaining a safe and secure environment for legitimate 
trade and travel, Coast Guard Sector San Diego brought together 20 
Federal, State, and local agencies with overlapping jurisdictions and 
authorities for operational planning and information sharing. Partners 
include CBP, ICE, and the U.S. Department of Defense, as well as State 
and local agencies who work in unity to coordinate maritime law 
enforcement operations, including the interdiction of the illegal 
movement of people and drugs across the maritime border.
    The establishment of additional Interagency Operations Centers 
(IOCs) for port security is well underway. In ports including 
Charleston, Puget Sound, San Diego, Boston and Jacksonville, CBP, Coast 
Guard, and other agencies are sharing workspace and coordinating 
operational efforts for improved the efficiency and effectiveness of 
maritime assets. IOCs provide a framework to align agency operations 
among DHS and other Federal, regional, State, local, Tribal, 
territorial, and international organizations and port stakeholders. 
Additionally, the web-based information sharing system Watch Keeper has 
been deployed in eight ports to date. Watch Keeper supports interagency 
information sharing and MDA management across port entities.
    Coast Guard Captains of the Port, in their Federal Maritime 
Security Coordinator (FMSC) role, also significantly enhance domestic 
maritime transportation security and preparedness by increasing 
cooperation and coordination. As the FMSC, Coast Guard officers manage 
the Nation's Area Maritime Security (AMS) Plans in coordination with 
respective AMS Committees. The AMS Committees and maritime stakeholders 
exercise and review these plans annually.
    AMS Plans are informed by the Coast Guard's annual Maritime 
Security Risk Assessment Model (MSRAM) analysis which involves the 
participation of hundreds of maritime security partners, including 
owners, operators, and emergency response and local law enforcement 
personnel through the AMSCs. MSRAM is used to perform risk assessments 
on critical infrastructure and key resources. MSRAM offers an analysis 
interface capable of generating tailored results to support risk 
management decisions at strategic, operational, and tactical levels.
    Coast Guard Maritime Security and Response Operations (MSRO) 
reflect the application of pertinent authorities, competencies, 
capabilities, capacities, and partnerships to deny the use and 
exploitation of the maritime domain to criminal or hostile actors. The 
Coast Guard coordinates, integrates, and facilities the activities of 
many Federal, regional, State, Tribal, territorial, and local 
government agencies as well as the maritime industry to generate 
layered security to prevent, disrupt, protect, respond to, and recover 
from terror-related risks in the maritime domain.
    In 2010, Coast Guard forces conducted:
  <bullet> More than 2,400 security boardings of high-interest vessels;
  <bullet> Almost 17,000 security boardings of small vessels;
  <bullet> More than 3,000 escorts of high-capacity passenger vessels, 
        e.g., ferries and cruise ships;
  <bullet> More than 1,420 escorts of high-value U.S. naval vessels 
        transiting U.S. waterways;
  <bullet> More than 850 escorts of vessels carrying certain dangerous 
        cargoes.
    The execution of MSRO's antiterrorism, counterterrorism, military 
outload protection operations, security response, and initial recovery 
operations deter our adversaries and maximize the probability of 
disrupting their pre-operational planning and interdicting a maritime 
transportation security incident.
    Finally, in the event that a significant incident occurs, CBP and 
the Coast Guard have implemented a set of protocols to develop 
recommended courses of actions to help recover the functionality of the 
Marine Transportation System (MTS). The protocols provide a forum to 
identify and act on important issues to facilitate rapid MTS recovery 
and the resumption of commerce. They also establish a process to 
collect and disseminate information regarding the status of the 
National MTS, provide recommendations for National-level priorities, 
including cargo or vessel priorities, or strategic actions necessary to 
facilitate rapid recovery of the MTS and resumption of trade. The 
protocols have been activated on several occasions, most currently for 
the floods in the Western Rivers. The Coast Guard and CBP are currently 
supporting DHS in its efforts to foster harmonized international 
standards for trade resumption with the International Maritime 
Organization, the World Customs Organization, and other multinational 
organizations.
                               conclusion
    The President's remarks at the Coast Guard Academy Class of 2011 
commencement perfectly summarize the Coast Guard's critical role in 
protecting and serving the Nation:

``And while we can never predict what the future may hold, we know that 
the complex missions asked of our Coast Guard have never been more 
important. Around the world, we need you to partner with other nations 
to secure their ports, protect the vital shipping lanes of the Persian 
Gulf, combat piracy off the Horn of Africa, and help train foreign 
partners from the Americas to Africa to Asia. Here at home, we need you 
to stop those smugglers, and protect our oceans, and prevent terrorists 
from slipping deadly weapons into our ports.''

    Thank you for the opportunity to testify before you today. I will 
be happy to answer any questions you may have.

    Mrs. Miller. Thank you very much, Admiral Papp.
    I guess I am going to start my questions by focusing on the 
cutters. I will start there because you have made it very clear 
that that really is your priority.
    So I appreciate you talking about where you are status-wise 
with the cutters that are currently deployed and being built, 
and those that you are looking forward to; hopefully, if we can 
get them through the Congress here.
    I do note that the sixth one was not requested by the 
President, although we didn't fund it either in the 
appropriations. So perhaps that is something, as this committee 
becomes convinced that we really need to focus on.
    We are going to be doing an authorizing bill here in this 
committee. I would suggest to the committee it is something we 
may want to press.
    I was interested to hear you talking about your group in 
Alaska. I can't even imagine being in those kinds of conditions 
with the temperatures, and the seas, and everything else, while 
they were rescuing one of their helicopters. So that really 
speaks to the capability of the cutter that you are so actively 
seeking for the Coast Guard.
    I don't know if we want to add anything to that, just other 
than the fact that we need to be helping you to make sure that 
we continue along that path to authorize and appropriate funds 
as we can.
    I guess, before I have you answer that, obviously the 
Federal Government is having some terrible fiscal constraints. 
I don't know, but I am suggesting this, but is there anything 
else, short of these cutters that would satisfy your need?
    Is there any other kind of vessel that we might think 
about? Or we shouldn't even be going down that road?
    Admiral Papp. Well, ma'am, the challenge, of course, is 
that it takes a long time to design a ship, to get an 
acquisition project baseline, and then sustain it.
    Right now, we have the acquisition project going in motion. 
What we need is the predictable funding stream in order to gain 
the efficiencies of the acquisition process and to work with 
the shipyards.
    The Coast Guard owns part of this issue because we went 
through rather significant acquisition reform trying to get our 
act in order.
    I feel we are there now.
    We successfully negotiated a fixed-price contract. We took 
out the lead systems integrator. We have been dealing directly 
with the shipyard. Now we have a fixed-price contract.
    We have awarded No. 4. I expect that we will award No. 5 in 
the near future.
    These ships cannot come soon enough.
    The major cutters that we have there right now trying to 
get the job done. I think trying because we have lost 
effectiveness, and they are unreliable. We are losing ship days 
because of their mechanical condition.
    As you rightly identified, they were built, for the most 
part, in the 1960s, into the early 1970s. They were designed 
for a quarter century of use, hard use, and they have got that. 
But they are rapidly approaching a half century of use now. 
Probably most of them, by the time they are decommissioned and 
replaced, will be older than a half century.
    We just cannot go on any longer. We need to get the new 
ships built as quickly as possible.
    To answer your question on No. 6, originally, because of 
working this fixed-price contract, when we finally nailed the 
price down, we found that we did not have enough money 
appropriated for hull No. 5. We needed to ask for $77 million 
more in the fiscal year 2012 budget, which is under 
consideration right now, in order to give us the remainder of 
the money to complete No. 5.
    Because of that, we didn't have enough room within our 
acquisition top line to put the full price of NSC No. 6 in 
there. So even though it was my final decision, it was a tough 
decision to make because I needed to keep No. 5 moving along.
    However thanks to the Congress, the full funding for NSC 
No. 5 was ultimately put in the 2011 budget, so that we are 
able to award the contract this year and move ahead.
    Mrs. Miller. Could you just tell me, just so I understand, 
how long does it take? What is the time frame we are looking at 
from, let us say, the money is authorized, appropriated. How 
long does it actually take to build the ship, and get it 
launched, and get it going?
    Admiral Papp. Yes, ma'am.
    By the time it is appropriated, it would generally take us 
about 3 years from starting, ordering long-lead parts, getting 
it constructed, getting it in the water, going through 
operational evaluation, and then fully operational.
    So time is a-wasting. We need to move forward on this.
    That is why I am delighted that we got the funding for No. 
5, because in reality, that saves us about $50 million per ship 
if we can keep the flow of the money going. Because the yard 
then has a predictable funding stream, and they can order long-
lead materials and other things to keep the production line 
going.
    Mrs. Miller. Admiral, I wonder if you could sort of flesh 
out for me, a little bit.
    I mentioned in my opening statement two of these teams that 
have come on-line, really, through the Coast Guard since 9/11, 
the Maritime Safety and Security Team and also this Maritime 
Security and Response Team, both of which have been incredibly 
successful, I think, by looking through all the briefing memos 
that I have had on it.
    But if you could just sort of flesh that out a little bit, 
of how you think those teams are operating with how you have 
missioned them, and appropriations, I guess, that are following 
as well, to resource these teams adequately?
    Because for instance, I just know in the Detroit area, one 
of these teams was used when we had the Super Bowl and 
everybody was raving about it. So I am sure they are being 
utilized with various kinds of infrastructure targets or what-
have-you around the country.
    But maybe you could tell us a little bit about how those 
teams are working, in your opinion?
    Admiral Papp. Oh, magnificent. We are lucky to have them. I 
am grateful that the Congress provided us the support to give 
us those teams.
    Granted, I need to balance a lot of things across the Coast 
Guard, but if I had more, I would make good use of them as 
well. But there are a lot of needs for our Coast Guard right 
now.
    So, let me tell you what we are doing with those teams.
    They were initial reaction to post-9/11. Throughout the 
1990s, most of our, what I would call, our conventional 
stations, Coast Guard stations, had been depleted. They were 
down to the bare minimum in terms of people and boats, just to 
carry out the search-and-rescue mission.
    Of course immediately, our thoughts turned to providing 
security in our ports post-9/11. The MSSTs, the Maritime Safety 
and Security Teams, were an immediate response to get what we 
referred to at the time as waterborne SWAT teams, that we could 
deploy within the ports to provide that extra measure of 
security.
    What we have done over time is we use them for National 
security events, Presidential protection, and other events that 
occur in the ports to supplement our conventional forces.
    What has happened over time though is that unlike my 
immediate two predecessors, as the budget was growing 
significantly over the last 10 years, I am confronted with a 
completely different landscape in terms of the budget. It is 
going to be constrained, probably, throughout my term.
    Because we had increasing budgets, we kept pushing new 
missions at these units, trying to add new capabilities on top 
of the things they were doing already, with the promise of 
potentially new resources coming as the budget continued to 
increase.
    We are on that right now, is doing a full review of these 
teams to make sure we are doing the absolute right things, to 
make sure we have got the right capabilities, that the training 
is in place to make sure they can do their missions effectively 
and safely, and that we are fully utilizing them.
    Now the MSRC is a different thing. That was one of the 
original MSSTs, Chesapeake.
    What we did within the Coast Guard is we saw the need for 
an enhanced team, and what we did was we told the Congress and 
the administration that we could do it resource neutral. What 
we did was we did away with our Tactical Law Enforcement Team 
North, and combined that with the Chesapeake MSST, and brought 
in some other billets from other places.
    These were not add-ons. They were reprogramming within the 
Coast Guard. They are a higher-level tactical team for 
interdiction of vessels approaching the coast or higher-level 
security needs.
    We are doing a full assessment of all their capabilities as 
well.
    Frankly to make full utilization of this team, they need 
organic air delivery system, or cooperation from partners to 
provide air delivery. We do not have it at this time.
    Mrs. Miller. Okay. I appreciate those comments.
    The Chairman would recognize the Ranking Member of the 
subcommittee, Mr. Cuellar.
    Mr. Cuellar. Thank you, Madam Chairwoman.
    January 15 is the day that this mission requirement 
analysis was supposed to be turned in to us. That was, as I 
mentioned a few minutes ago, last year's Coast Guard 
Authorization Act of 2010. There was a provision that we added 
that a mission requirement analysis for the navigable parts of 
the Rio Grande, and it was due on January 15.
    Any particular reason why this has not been turned in?
    Admiral Papp. No reason at all, sir. That is my fault. I 
regret that it was not turned in.
    The report has been turned in to the Department and it is 
under review right now. Frankly, knowing of your concern, I 
went back and took a look at the report.
    I would like to take a further look at the report because I 
don't think it fully answers the mail.
    Now it is with the Department right now. It is probably an 
adequate response.
    I would like to take one more look at it myself after the 
Department does. But it is on the way, sir. It is my fault it 
was not done on time.
    Mr. Cuellar. I appreciate that.
    No excuses.
    I thank you for that.
    Also, there is some reported language that I added to this 
appropriation bill that we just passed last week, where the 
committee also notes that when you testified before the House 
Homeland Appropriations Committee, you also had mentioned 
``that some level of persistent presence is required on Falcon 
Lake.'' As you know, there has been some instances.
    There is some language there also where the House 
Appropriations on Homeland also recommends that the Coast Guard 
adhere to your testimony that you provided the committee, and 
also report to the House whether you will be having some sort 
of persistent border presence down there.
    I would ask you, there is statutes, and now at least from 
the House version, so far, we have got to wait for the Homeland 
Appropriations Bill to pass. But I ask you would do the same 
thing, to have some sort of presence there.
    I would ask you to go ahead and just take a look at that 
language which we provided your Congressional affairs folks' 
office.
    So look forward, if you don't mind, I will call you up at a 
later time, when you have some time. Love to follow up on this, 
two languages provisions.
    The other thing I would ask you, you had mentioned the 
Coast Guard has strengthened mutual relationships with the 
Mexican Navy, SEMAR, and the Mexican Secretariat for 
Communications, Transportation, the SCT. That you all have been 
increasing the engagement with them, working with them to make 
sure that we work with them on education, training, 
participation, and exercise coordinated operations along with 
intelligence information sharing.
    How is that coming along, your relationship? Because as you 
know, the Chairwoman represents the Northern border, I 
represent the Southern border. Because of what has been 
happening with the Mexican drug cartels, it is of interest to 
me, especially when I live right at the border itself.
    Could you tell us how that is coming along?
    Admiral Papp. It is coming along very well, sir.
    You know, it is two different partners that we deal with, 
Canada and Mexico. I have got extensive experience dealing with 
Canada, because I was the Ninth District commander along the 
Northern border for a couple of years.
    I looked forward with anticipation to getting down to 
Mexico for the first time, which I did last summer. I had a 
long meeting with Admiral Saynez, basically their chief of 
naval operations.
    I would characterize our relationship with the Mexican 
Navy, I think I can say with great pride, probably better than 
our U.S. Navy gets along with them because they are more like a 
Coast Guard than they are like our Navy.
    They have search and rescue, law enforcement, pollution 
response, many of the same things that we do. So we have a lot 
of similarities.
    Culturally, it is a little different than dealing with the 
Canadians as well. The Mexicans value their independence, their 
sovereignty. So we work that a little bit different.
    We do some coincidental operations with them. But our 
cooperation has continued to improve. We have actually had drug 
interdiction cases that we have been able to hand off to the 
Mexicans, and they prosecute them very well, even a semi-
submersible.
    So we are sharing information. We are sharing best 
practices. We share training.
    More importantly, we are talking to each other. Not only at 
the highest level, but also our districts that border Mexico, 
the 11th Coast Guard District out of Alameda, and the Eighth 
Coast Guard District out of New Orleans.
    They work with their local partners as well.
    Mr. Cuellar. I thank you for that cooperation with them.
    I would ask you, also, on this analysis, mission analysis. 
I would ask you to see if you can encourage our Mexican friends 
to also do a little bit more on the Rio Grande, this 
international waters, the brown waters as it is called.
    I would ask you to take a look at it and see if you can 
encourage them to work with you on that particular area.
    I know you have been doing a lot of work on the Gulf, which 
I appreciate. But it is that area there that I would ask you to 
spend a little bit of time, as you do your mission analysis, to 
tell us what sort of personnel, or equipment, or air boats that 
you might need, or whatever it might be, whatever assets you 
are talking about.
    But I would ask you to look at that because we have done a 
job with the border patrol on the river banks and beyond that. 
But I think the water should sell by the ones that we have 
neglected. If you can encourage our Mexican friends to work 
with you, I would appreciate it.
    Admiral Papp. Absolutely, sir. But it is also cooperation 
within the Department of Homeland Security as well. I can 
assure you in that regard, that Commissioner Bersin and I meet 
regularly. We have senior leadership groups that work together.
    Both of us carry individual authorities within our 
organizations. Our resources are distributed a little bit 
differently. But we are constantly sharing resources back and 
forth, leveraging off each other's authorities because we have 
to have a coordinated response from our side as well.
    Mr. Cuellar. Yes. Coordinated in any way you want to, I 
just want to see the results.
    Admiral Papp. Yes, sir.
    Mr. Cuellar. The results are just more presence on the 
international waters called the Rio Grande.
    Admiral Papp. Yes.
    Mr. Cuellar. Thank you so much. I appreciate all the work 
you have done.
    Thank you, Madam Chairwoman.
    Mrs. Miller. I thank the gentleman.
    The Chairwoman would like to recognize the Chairman of the 
full committee, Chairman King, from New York.
    Before I do so, I would just mention to the admiral that it 
is not every day at our subcommittee we have both the Chairman 
and the Ranking Member at the subcommittee. I think it is 
indicative of the respect that all of us feel towards you and 
your service to the Nation, certainly, sir, but all of the 
brave men and women of the United States Coast Guard.
    The gentleman from New York.
    Mr. King. Thank you, Ms. Miller.
    Thank you very much for the leadership you are providing on 
this subcommittee. Also my good friend, Mr. Cuellar, who 
demonstrates true bipartisanship, working with you as your 
Ranking Member.
    Admiral, I am sorry. I was not here for your opening 
statement. I will have to be leaving in a few moments.
    I just wanted to, at the outset, commend you for the 
outstanding job you have done. You and I have had the 
opportunity to meet several times. I realize just how immense 
the responsibility is that you have.
    As you mentioned, during the time of your most recent 
predecessors, the responsibilities of the Coast Guard were 
expanding, but also so was the budget and the resources.
    Now you still have the expanded responsibility, but 
obviously resources being cut, these are tough budget times, so 
you really have a very, very difficult job. I commend you for 
what you are doing.
    I also commend the Coast Guard.
    As a New York resident, I know first-hand, the outstanding 
job the Coast Guard does in providing homeland security, in 
working closely with the local police, the State police, and 
just the outstanding job it has done in the New York Harbor, 
Long Island Sound.
    I remember, during a Republican convention in 2004, the 
Coast Guard was absolutely essential to the security operation 
that is in place.
    So it is not just New York. It is the Super Bowl. It is 
Guantanamo. Basically the Coast Guard has been omnipresent 
since September 11, and has really stepped up to the plate and 
done an outstanding job.
    I just want to assure you, and I think I can speak for both 
sides of the aisle, is that we appreciate what you are doing. 
We also realize how tough the days and weeks and months and 
years are going to be, as you continue these responsibilities, 
but with limited resources.
    We want to work with you. We want to do whatever we can to 
be an advocate for you. We intend to do an authorization bill 
this year. We want to work closely with you as we go forward 
with the authorization bill, as we try to project toward the 
future, about what is reasonable and what is essential for you.
    You should know that we are always available to you as you 
have been to us.
    I want to thank Mrs. Miller for the job she is doing and 
thank you for your testimony today, that I had the opportunity 
to read.
    Your testimony, your statement and, again, it is the type 
of leadership that our country needs and the Coast Guard needs, 
and why you are such an integral part of the Department of 
Homeland Security, and why I believe that the Coast Guard is 
such a good partner, both within the Department and also at the 
State and local level.
    I get nothing but rave reviews for your job.
    As I said, when we met in your office, and some of us in 
Congress, you know, we complain about the tough job we have. It 
is nothing compared to what you have. It really is front line 
with limited resources.
    So thank you for your service to our country, for these 
many years, and the very, very best of luck in the years ahead. 
Again, I believe I can speak for the Ranking Member and 
certainly the Chair of the subcommittee, in saying we want to 
work with you and do what we can to facilitate your job and 
enable you to carry out your responsibilities.
    Thank you, Admiral. Thank you very much.
    Admiral Papp. Thank you, Mr. Chairman. I am honored you 
took the time to come here this morning.
    Mr. King. Thank you.
    Mrs. Miller. I thank the gentleman from New York.
    The Chairwoman recognizes the gentleman from Mississippi, 
the Ranking Member.
    Mr. Thompson. Thank you very much, Madam Chairwoman.
    Let me say from the outset that Chairman King and I have 
been on this committee from Day 1. I have never heard him say 
any more flattering words to anybody before this committee, 
other than what you just received, Admiral. So you obviously 
are the man.
    Rightfully so, you have done a good job, you represent a 
good organization.
    Taking off from what Ranking Member Cuellar said, that, you 
know, you handled 11 statutory missions of the Coast Guard. 
Sometimes it appears that you are going to have to seriously 
look at all these missions and see whether or not you can 
really accomplish them.
    There have been some hit-and-misses in terms of that 
discussion. So I am going to give you a softball to kind of say 
whether or not the missions, the homeland security missions of 
the Coast Guard are something that you are absolutely 
comfortable with?
    Admiral Papp. Sir, I am never comfortable with anything.
    We have finite resources. We have that broad mission set.
    Now, the good news is those finite resources that we have, 
the ships, aircraft, and boats, are all versatile and 
adaptable. You can use them across all those mission sets at 
various times.
    More importantly, the people who crew those ships, boats, 
and aircraft are versatile and adaptable too. They understand 
how to do multiple missions.
    What we do is we pay our leaders, people like me, to make 
decisions on a daily basis, to use risk-based determinations on 
where our highest-priority missions are on any given day and 
then allocate those finite resources across those mission sets.
    A good example is last year with the Haitian earthquake. 
Now we don't have Haitian earthquake Coast Guard cutters 
sitting around on standby, ready to go and provide humanitarian 
response. But we had cutters that were deployed in the Windward 
Passage and the Florida Straits doing migrant patrols. We had 
drug interdiction vessels that were in the Caribbean.
    Overnight, we changed their mission and sent them to Haiti, 
because it was a higher priority. We needed to respond to that 
to provide relief to the people of Haiti.
    When Deepwater Horizon came up, we didn't have oil spill 
vessels on standby. What we did was we had to redirect our 
fleet. Seven of our 16 seagoing buoy tenders, that have oil 
skimming capability, we took them off their normal eight 
navigation missions and sent them to the Gulf. Then they worked 
there for 5 months.
    So what we do is we take acceptable risk across all those 
missions, and we continually evaluate that risk, and then 
reallocate the ships, aircraft, boats, and people to what we 
perceive to be the highest threat at any given time.
    In terms of homeland security, that is job No. 1, as I 
said. We are constantly evaluating that. Intelligence, 
cooperation with partners, cooperation with other countries 
informs that risk-based decision-making process. There are 
times when we will devote everything that we have to security.
    Mr. Thompson. Right.
    Admiral Papp. But on a day-to-day basis, we are doing 
adequately.
    Mr. Thompson. I appreciate and compliment the leadership 
that you offer in addressing that.
    I think one of the questions for a lot of us is we have 
looked at the resources that you have been provided to do that. 
A term that we have in the South is called, getting blood from 
a turnip.
    So it is obvious, you are able to work wonders with few 
resources. This last appropriation that this body voted on cut 
you substantially in critical areas.
    If those cuts go forward, what will that do for the Coast 
Guard in addressing those critical missions?
    Admiral Papp. Well, the--I think you are talking about the 
House appropriation----
    Mr. Thompson. Yes.
    Admiral Papp [continuing]. Marked for the 2012 budget.
    When we developed that budget, I had two critical 
priorities. One is sustaining our operations. I didn't want to 
cut a single person or diminish our service to the people. We 
are already at pretty much bare minimum across all the mission 
areas, so I wanted to sustain our operational level.
    At the same time, we need to rebuild the Coast Guard. That 
is our acquisition money.
    Where I am concerned on that mark is that it took out two 
of our six patrol boats, and we desperately need to 
recapitalize our patrol boats. Ten of our medium-response 
boats, and probably one of my pet projects is to try and do 
better for our Coast Guard families, and it cuts some of our 
housing money for our families as well.
    So primarily, the cuts were on the acquisition side. It 
keeps the money in there to sustain current operations, but it 
slows down the recapitalization of those old ships and 
infrastructure that we so desperately need to do.
    Which then, in turn, as it slows it down, it increases my 
operating costs because we are constantly operating older and 
older equipment that costs more each year to maintain.
    At some point, I am going to have cut all the fat in our 
operating budget. What we are going to backed into is a 
situation where we are going to have to cut people and units, 
because we won't have any more administrative costs that we can 
cut.
    Mr. Thompson. Thank you very much.
    Madam Chairwoman, I have a couple of other questions I will 
submit for the record.
    Now the question relative to the dredging of the 
Mississippi, I know that is primarily the corp's function, but 
there are some issues that have come up recently that if the 
dredging is not maintained in an organized fashion, it puts 
river traffic at risk.
    Congressman Richmond wanted me to provide that question to 
you, and we chatted a little bit. But I have a formal question 
that I will submit for your response.
    Admiral Papp. Yes, sir. We will be happy to respond.
    Mr. Thompson. Thank you, Madam Chairwoman.
    Admiral Papp. Thank you.
    Mrs. Miller. I thank the Ranking Member.
    I would also mention that dredging is a huge issue in the 
Great Lakes region as well as the Mississippi, which is why I 
am looking forward to working with him and other members on the 
Harbor Maintenance Trust Fund, making sure that we spend all 
the dollars that go into the Harbor Maintenance Trust Fund on 
dredging, rather than going into a black hole of a general 
fund. Because dredging is important for commerce, and a 
critical element of our economic path to prosperity, I think.
    At this time, the Chairwoman would recognize the gentlelady 
from California.
    Ms. Sanchez. Thank you, Madam Chairwoman, and I appreciate 
the time.
    Admiral, first of all, as you probably know, I think the 
Coast Guard does a great job. So we are really happy to have 
you before us.
    I got to see it first-hand when I was the Chairwoman of 
this subcommittee. So thank you very much for the work that you 
all do.
    I was going to talk a little bit about the TWIC Program. 
Because for those who don't know the Transportation Worker 
Identification Program, that we have a card that would be used 
by our port workers, and actually anybody who goes onto a port.
    We have been trying to get this implemented now for a few 
years and have had various problems, actually, with it. 
Certainly delays in implementation, which have cost a lot of 
workers work time.
    Because, for example, if you are a longshoreman and you 
can't get onto the port to do your 8-hour work day, that is 
time lost. I mean, that is what these people are selling, their 
labor for the day. You can't get that back.
    So with the budget constraints, I am worried about where we 
are going to go forward with this.
    In fact, in this past Coast Guard authorization, I put in 
there, I instructed the Coast Guard to help facilitate escorted 
access for TWIC applicants, who were trying to get to their 
job, but hadn't been, for whatever reason, been unable to get 
their card, you know, they have got a background check to go 
through.
    Maybe the place where they have to go get the card is far 
away. The card got lost in the mail, or the card didn't come or 
it can't come through the mail. They have to go pick it up, so 
they have to lose another day to go find it.
    There are a lot of people, and by the way, this is 
affecting a lot of our minority communities, especially 
African-American and the Hispanic community.
    So I had put in something to say that if they were in the 
middle of that process, the Coast Guard should help facilitate, 
to escort them onto the port. Because if you don't have a TWIC 
card and you are not escorted, you can't get onto the port to 
do your work.
    So can you please explain to this committee, because I have 
heard a lot from a lot of the people who are suffering with 
this problem, that the Coast Guard hasn't helped to escort 
workers onto the ports?
    If you are indeed providing such a service in accordance 
with the law that we passed, would you please explain how you 
are doing that and how you are reaching out to employees and to 
labor organizations, to help them to understand what the 
process is if someone is in the TWIC process, for whatever 
reason, hasn't really been able to pull their card, and still 
manages to get onto the port to work?
    Admiral Papp. Well, thank you, ma'am.
    First of all, let me say that I agree philosophically with 
everything you said.
    You know, as a ship captain, I was always, and I have told 
this to many of the industry groups, I always was concerned, in 
my case, about regulations and policy coming out of Coast Guard 
headquarters that made it harder for me to do my job. I have 
sort of transferred that philosophy to dealing with the marine 
industry as well.
    Often times, we come up with broad-based solutions to 
perceived and real problems, and we don't understand full well 
the difficulty of implementation that goes across the board.
    I have heard you and others loud and clear and I have made 
a personal effort to get out and meet with the industry groups: 
The Passenger Vessel Association, America Waterways Operators.
    I went down to Houston last week and met with industry. 
First and foremost, I am listening and finding out about their 
concerns.
    Then going back to Coast Guard headquarters, and coming up 
with, let us come up with some solutions on perhaps how we 
might modify or change or look at other arrangements for 
certain segments of that maritime industry population.
    But at the end of the day, I agree completely with having a 
single identification card that can be used across the 
industry. The philosophy of that has found the course, the 
details, and the problems out of the implementation, as you 
have well identified.
    I don't have the answer on the escorted process right now. 
I would be happy to provide that for the record. It is 
certainly something that I think is reasonable and I understand 
your concern. I will go back with my staff and work and see 
what solutions we can come up on that.
    We have other challenges that I found out, last week, when 
I went down to the Harbor Safety Committee and convention that 
was down in Houston that deals with seamen who come off foreign 
ships and how they get across the facilities to go out for 
deserved shore leave as well.
    Ms. Sanchez. But in some cases, it is easier for them than 
actually one of our workers to get onto the port, if they don't 
have this TWIC card.
    I agree with the whole issue.
    This should be one card. We shouldn't have to have a HazMat 
card, a something card, a port card, a State card, because it 
is costing time and effort and money for these people to be 
credentialed to get onto our ports. But in particular, for 
those who, other than the process is bogged down, we need to 
figure out how you help them get onto the port for their day's 
work until we figure out these other SNAFUs that we are having.
    Admiral Papp. Yes, ma'am.
    Ms. Sanchez. I would appreciate that. I will look forward 
to your report on that.
    Admiral Papp. Yes, ma'am.
    Mrs. Miller. I thank the gentlelady for bringing up the 
question of the TWIC. I think every Member of this committee, 
certainly myself included, have had a number of conversations 
with the maritime industry about the, as you mentioned, the 
implementation of that.
    So, perhaps you could provide the committee with the status 
of where we are, any suggested recommendations you might have 
on how you intend to proceed, and if there is any additional 
legislation needed by the Congress or how we can help you work 
that problem through.
    Admiral Papp. Yes, ma'am.
    Mrs. Miller. I appreciate that.
    At this time, the Chairwoman would recognize the gentleman 
from Detroit, Mr. Clarke.
    Mr. Clarke. Yes.
    Thank you, Madam Chairperson.
    Admiral, it is great to see you.
    I wanted to commend you for your years in the Coast Guard 
and also specifically of being the 13th Gold Ancient Mariner of 
the Coast Guard. That is an extraordinary accomplishment.
    I represent the city of Detroit, that Detroit sector that I 
know you know well. I wanted to follow-up on Ranking Member 
Thompson's questions, which I believe go to the very heart of 
the major issue here.
    It is whether this proposed 2012 budget provides the Coast 
Guard with enough money to actually guard our coasts. In 
particular, I would like to refer to some comments that were 
summarized to me about your 2011 State of the Coast Guard 
address, where you stated that in light of the sharp increase 
in mission-related deaths, the Coast Guard may need to either 
reduce the number of homeland security missions and the 
training related to the skills needed to execute those 
missions. That you are also performing a comprehensive review 
of deployable specialized forces, and that that review would be 
coming out sometime in early August.
    Will that review, or do you have an opinion, on whether you 
need more service personnel in order to carry out your 
additional homeland security mission that you have been given, 
subsequent to 2001?
    Does the proposed budget provide you with the resources you 
need to hire these people?
    Admiral Papp. Well, sir, we have gained 6,000 people since 
2001 and I value and need each and every one of them.
    We were reduced in size during the 1990s. Actually, the 
size of the Coast Guard right now, the active duty force of 
about 42,000 people is about the same size we were in 1990, and 
before we went into those reductions.
    We have what is adequate right now to meet our mission. But 
as I have said before, we can't do 100 percent in every 
mission, every day. We cannot be everywhere and do everything 
for everybody.
    So, we make those risk-based decisions. Our senior leaders 
make decisions on the allocation of the finite resources to 
whatever is the most important mission on that particular day.
    Having spent some time in Detroit, I was the Federal 
coordinator up there for the Super Bowl, for Super Bowl XL, a 
couple of years ago, the Coast Guard certainly can't do it on 
our own. What the Federal coordinator does is exactly what I am 
trying to do with the Coast Guard. We strengthen and enhance 
partnerships.
    When you do a security operation for a National security 
event like a Super Bowl in Detroit, you have got to bring in 
the municipal, the State, the other Federal agencies, and then 
bring them together in a unity of effort to leverage 
everybody's authorities and everybody's capabilities to get the 
job done.
    Coming into my job, as commandant, one of the four 
principles I put out was strengthening our partnerships because 
I foresaw that we would be confronted with constrained budgets, 
and we would have difficulty building the Coast Guard larger in 
the years ahead.
    So we are reaching out everywhere we can to share 
partnerships.
    The Customs and Border Protection Operations Integration 
Center, out at Selfridge Field, is a great example of what can 
be done, enhancing partnerships and bringing people together. 
In fact, I have directed my folks to see if Sector Detroit can 
in fact leverage that and perhaps co-locate a little bit 
better, so that we can bring multiple agencies together to 
enhance the effectiveness of our security operations that 
better than one agency can do all by itself.
    So these are things that I have been devoting my efforts 
to, seeing where we can leverage out other agencies, things 
that the taxpayers are paying for already that we can put to 
use.
    Mr. Clarke. Thank you. Thank you, Admiral.
    Admiral, I have one question regarding your deep water 
program on whether the proposed 2012 cuts would impact the 
number of acquisition personnel we have dedicated toward 
managing that program, especially in light of the fact that 
this program is to coordinate the acquisition upgrades of 
aircrafts and vessels that are desperately needed.
    The GAO, back in 2007, even indicated that in order for you 
to step up your presence, in monitoring the acquisition 
program, you need more people.
    Admiral Papp. Well, I am not aware that the individual cuts 
on the acquisition side. I don't believe we will cut any 
acquisition people because we are able to keep the bare minimum 
going on all the project baselines.
    What it will do is it will push to the right the completion 
of those projects because we are getting fewer patrol boats and 
response boats constructed this particular year. We still need 
the people on the projects.
    We cannot afford to lose any of our acquisition people.
    One of the communities in our Coast Guard, they got hit the 
worst during the 1990s when we had to cut back, was our 
acquisition professional corps that we had on the Coast Guard.
    We weren't getting money to build ships. We couldn't 
sustain them. So we lost those people. So then after 9/11, when 
we started getting a lot of acquisition money, we had to 
basically rebuild our acquisition work force.
    I am confident we are at where we need to be in terms of 
the makeup, and the structure, and the number of people we have 
on our acquisition program right now.
    What we need is the steady funding stream coming into those 
projects, so that we can keep those people employed, and get 
our capital assets recapitalized.
    Mrs. Miller. I thank the gentleman.
    I appreciate the admiral mentioning the OIC, as we call it, 
the Operational Integration Center at Selfridge International 
Guard Base, which, of course, is in my district.
    We had the Vice Commandant Brice-O'Hara that came out, and 
was there when we had the grand opening. I know that the 
gentleman from Detroit was there as well.
    Really I do think, particularly in light of the GAO's 
report about the Northern border being essentially unsecured, 
and the takeaway from their entire report was how we do have to 
strengthen our partnerships, as you mentioned, Admiral.
    In a time of declining budgets, we have all of the affected 
stakeholders able to consolidate and analyze data. That is a 
fantastic operation, that is working very well already, where 
we have not only the Coast Guard and the CBP, first responders 
in the immediate area, the County Emergency Management 
Department, our counterparts with the Royal Mounted Police in 
Canada.
    Everybody, I think, involved there and in analyzing all of 
this data, so that you do have a working tool at the end of it 
that can get out into the hands of our folks in the various 
agencies and on the border to be able to identify threats, et 
cetera.
    But when we think about the total force concept, going 
forward I think something like that could be replicated, not 
just on the Northern border, but the Southern border, 
everywhere, really. It is where we are going to have to go.
    I know you are mentioning about your constrained budgets. 
If it is any comfort, you are not the only one that is taking 
this. This is the problem that we have in our Nation right now. 
It is one of the reasons we are having this hearing today, how 
can we think about prioritizing the resources and making sure 
we are able to allow you to do the job that you do so 
fantastically well each and every day.
    With that then, the Chairwoman would recognize the 
gentlelady from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. I want to thank the Chairman and the 
Ranking Member for holding these continued oversight hearings 
and on such an important issue.
    I truly believe the Chairwoman when she speaks to her 
concern and recognition of the vitality and importance of the 
Coast Guard, along with my colleague and friend from Texas, who 
has mentioned eloquently his concern about Coast Guard 
assistance for the very difficult neighborhood that Mexico is 
in and difficult challenges that we are in.
    I might say, Admiral, that I believe that we have to engage 
priorities.
    I heard from an eloquent constituent that during hard 
times, it be the consumer spending, business spending, and 
investment, or Government investment, and for some reason we 
have turned that upside down.
    I think if we take, if my history recalls, we take our 
historical record from the President who was in office 
preceding the crash in 1928, that President did not run again 
because he saw the crash and he knew that the lack of 
Government investment was sending the United States in a deep, 
spiraling downhill.
    Unfortunately, the President who followed did not 
understand that and continued to spiral downhill.
    It was Franklin Delano Roosevelt that understood that there 
needed to be Government investment.
    So let me just quickly raise the question, the Port of 
Houston is 25 miles long, and it faces homeland security 
issues. I would ask what you think the largest threat to a port 
like Houston and other large commercial ports are.
    I would be interested in, as well, if you could start with 
this question of the TWIC card is very important to ports all 
over. You all have been rule-making since 2009. The deadline 
has passed. And I would be interested in knowing what the Coast 
Guard plans are to issue a final regulation?
    I noticed that your ships are an average age of 14, whereas 
Navy ships are 40. I was in Panama and Columbia, excuse me, 14 
years old, 14 years average age.
    I was in Panama and Columbia and they were pleading, I 
won't call their names, pleading for the greater resources and 
asked that the Coast Guard, because of the constant activity on 
the waters, with major drug cartels and major finds, they 
consider the Coast Guard their front line of armor, if you 
will, and help.
    Even if their country's meager resources are out trying to 
battle these dastardly, if you will, cartels and violent 
actors, they feel comforted by the presence of Coast Guard 
equipment.
    Can you respond to how you are able to do it or not do it? 
Would you tell us whether you have all the resources you need 
to do the job that everyone is asking you to do?
    Admiral Papp. Well in talking to Panama and Columbia, and 
that particular situation, of course that is the drug 
interdiction. We are becoming increasingly challenged to 
provide the bare minimum of Coast Guard cutters down to the 
deep Caribbean and the East Pacific in response to the requests 
from Joint Interagency Task Force South.
    This is a mission that I believe in because when we are 
intercepting 4, 5, 6, 7 tons of cocaine in a load, it prevents 
it from landing in Mexico or other places in Central America, 
and then being broken down into smaller transportable packages 
that then contribute to the violence along our Southern border.
    So----
    Ms. Jackson Lee. So more resources would help you?
    Admiral Papp. Yes, ma'am, and more reliable resources.
    We are trying to build this new fleet of cutters. Quite 
frankly, my major cutters, I am getting about 75 percent of 
their programmed hours right now because of breakdowns and 
other challenges in keeping 40-year-old ships running.
    The newer ships will be more reliable, more effective, and 
will provide a better presence and be safer for our people to 
operate and will contribute to better effectiveness in that 
particular mission.
    We, right now, are supplementing by putting law enforcement 
detachments aboard Navy ships and foreign vessels that are down 
there. But foreign governments are finding it increasingly 
difficult to keep ships on station, whether it is French, 
Dutch, or British. Frankly, the United States Navy is having a 
hard time keeping ships down there on station as well.
    So even with those law enforcement detachments, we are 
losing time and we are losing effectiveness.
    Our interdiction still is pretty good. Of the predicted 
drug flow, we think we got about 40 percent of it in the 
transit zone last year. But I think the smugglers are starting 
to look at other routes as well.
    More ships on station will help us out. But those ships are 
versatile and able to use for other missions across the Coast 
Guard where we need them also.
    Ms. Jackson Lee. I had asked you about the TWIC card. When 
do you think you are going to have that regulation?
    There is a lot of backlog now, when do you think you are 
going to have that regulation ready?
    Admiral Papp. That is a backlog and, ma'am, I don't have 
the current prediction on that one. We are, of course, working 
with TSA. We need to make progress on the TWIC reader. If I 
may, I will submit that answer for the record.
    Ms. Jackson Lee. Would you, please?
    Madam Chairwoman, if you would indulge me for a moment?
    Mrs. Miller. Actually, just to interrupt for a moment, just 
before you came in, we had asked the admiral to give us a 
complete breakdown of the status on the TWIC cards. There have 
been several questions. So he is going to give a full report to 
the committee of how we proceed with the TWIC card.
    Ms. Jackson Lee. I would greatly appreciate it, since the 
subcommittee that I have has dual jurisdiction to do so.
    You did, and quickly, could you just answer the terrorist 
question, the greatest threat to ports in America?
    Admiral Papp. The greatest threats to ports in America is 
the small boat threats, simply because we don't have a good 
handle on sorting. But we, through our small vessel security 
strategy, working in partnerships, leveraging technology, 
applying our resources in a risk-based manner, I think we are 
doing much better.
    I appreciate the comment on the Port of Houston. I was down 
there last week for the Harbor Safety Committee convention, 
which brought in 350 people from across the Nation, sponsored 
and hosted by the Houston Area Maritime Security Committee and 
Harbor Safety Committee.
    That is my second visit to the port down there. The other 
being a couple of years ago, after Hurricane Ike went through.
    Ms. Jackson Lee. Yes.
    Admiral Papp. Has made an amazing recovery. Our sector is 
doing a good job down there. Once again, leveraging 
intelligence, information, other things, help us to mitigate 
the risk within our ports, and then applying our boats for 
escorts and other activities.
    Ms. Jackson Lee. Thank you. Let me thank you for your 
service and that of all your personnel. We greatly appreciate 
it. We thank you for being a very viable part of the United 
States military.
    Thank you again for your service.
    Admiral Papp. Thank you, ma'am.
    Ms. Jackson Lee. I yield back.
    Mrs. Miller. Thank the gentlelady for her questions.
    We have gone through our first round of questioning. I 
realize the admiral has other things to do, as do we, but I 
would like to ask a couple more questions if I could, Admiral.
    Full transparency, a bit parochial, with the Great Lakes 
region, and I know you are very familiar with that.
    One of the things I have noticed, I have had an opportunity 
at Air Station Detroit to go out on the helicopters or the 
HELOs. They don't have de-icing equipment on these helicopters, 
which I have to say I was stunned, in that environment not to 
have de-icing capabilities.
    Are you aware of that? Do you think there should be some 
de-icing put on these helicopters?
    What is the cost of such a thing? Do you think that is even 
a priority?
    I know you are already doing emissions with that. But 
again, it was just startling to me to see that there was no de-
icing capability.
    My other question, talking about icing conditions, is 
perhaps you could talk a little bit about where you are status-
wise, with the ice-breaking capabilities, within the United 
States Coast Guard and the kind of things we need to look at in 
the future.
    Admiral Papp. Yes, ma'am.
    Thank you.
    That is two great opportunities for me.
    Well, first of all, as you know, we have the H-65 
helicopter, both at Air Station Detroit and Air Station 
Traverse City.
    Going back in history, Air Station Traverse City used to 
have larger helicopters until we went through new helicopter 
purchases. Then probably for standardization reasons, in the 
Ninth Coast Guard District, they went to H-65s at both those 
air stations.
    The other complicating issue is that we have been directed 
in statute to provide for the two aviation detachments, one in 
Waukegan and one in Muskegon. Those use the H-65s, and they are 
resourced out of Detroit and Traverse City.
    I agree with you, we need de-icing. But we can't install it 
on the H-65. That just adds to the weight of an already semi-
limited helicopter to begin with.
    It is good for its purpose, but for de-icing and for larger 
mission profile, we really need our H-60 helicopter, our 
medium-range helicopter.
    When I was the Ninth District commander, I advocated for 
putting H-60s up at Air Station Traverse City because of the 
longer distances on Lake Superior and the harsher conditions. 
Unfortunately, we haven't seen any growth in our helicopter 
fleet.
    Last year, when the 2011 budget, the fiscal year 2011 
budget was proposed, because of some reductions that we had 
anticipated, we were looking at reallocating helicopters, 
taking H-60s from other locations and perhaps outfitting 
Traverse City with H-60s.
    Ultimately, that was not supported in the budget, so we 
continue with the H-65.
    In an unconstrained resource environment, I would love to 
have H-60s up at Air Station Traverse City. Because of the 
challenges they face, we will continue to look at that.
    The H-60, as you know, does have de-icing. We will continue 
to evaluate that and look at the potential for a resource 
proposal, or a reallocation if it permits us to move further 
forward.
    I am sorry, but I lost the second part.
    The second----
    Mrs. Miller. The ice-breakers.
    Admiral Papp. Ice-breakers----
    Mrs. Miller. Where are we with the ice-breakers?
    Admiral Papp. We are in a deplorable condition. We have two 
30-year-old polar ice-breakers, neither of which works right 
now. For a variety of reasons, which does me no good to whine 
or complain about, except that it is my job now to come up with 
an action plan to provide us with that capability.
    With the 2012 budget, the President has requested $35 
million to put Polar Sea into operation, one of our polar ice-
breakers, and to sustain Healy, which is our medium ice-
breaker.
    That brings the money back into the Coast Guard from the 
National Science Foundation, which is a good move.
    We gave up the operating funds a number of years ago. I 
think that was a mistake. It was probably for good reasons at 
the time. But I am glad to get the money back in our budget.
    Unfortunately, there is not enough money to run both polar 
ice-breakers. Ultimately, what we need to do is come up with a 
long-term solution of what suits our country. Our high-latitude 
study should inform that decision.
    Then what we really need is a policy decision across 
Government on what the United States is going to fund in terms 
of capabilities in the Arctic, which doesn't just include ice-
breakers. We need to look at aircraft, potentially air 
stations, search-and-rescue facilities.
    I made a trip up to the Northern slope last summer to 
evaluate the situation. I visited Nome, Kotzebue, and Barrow. 
We have zero resources up there right now, to carry out Coast 
Guard missions.
    Ice-breakers are a part of that, but we really need the 
full spectrum of Coast Guard capabilities.
    So that will require either a reallocation of resources 
that I already have, which we already admit we are under-
resourced to begin with, or put in a resource proposal for what 
we need in the Arctic and that is the direction I intend to 
take.
    Mrs. Miller. Thanks very much.
    I recognize the gentleman from Texas.
    Mr. Cuellar. Thank you, Madam Chairwoman.
    A quick question, in your testimony, you referenced that 
well before vessels arrive to the U.S. ports, screening, 
targeting operations provide critical information regarding 
vessels, crews, passengers, cargo destined for the United 
States.
    Tell us how this information flows between the U.S. Customs 
and Border Protection and the Coast Guard and how that aids 
your port security missions?
    Admiral Papp. Mr. Cuellar, that is another great example of 
strengthening and working our partnership. Once again, no 
agency can do it all on their own, so we have to share.
    Part of the value that the Coast Guard brings to the 
Department of Homeland Security is we are a member, a named 
member, of the intelligence community.
    Our Intelligence Coordination Center, ICC, is co-located 
with the Navy's intelligence out at Suitland. So we share 
information there.
    We are also linked with the targeting centers that Customs 
and Border Protection maintains for both cargo and passengers. 
So as we get cargo and passenger manifests for those ships that 
give us their advanced notice of arrival, we are able to screen 
the passengers, screen the crew, screen the cargo, compare 
notes with Customs and Border Protection, with Navy 
intelligence and other agencies to make an assessment on the 
safety and security of that ship that is coming into our port.
    Then, of course, as I said, we have our international port 
security liaisons that inspect the various foreign ports. It is 
a support that we don't have to plea confidence in. We can 
impose additional conditions at entry before they come into our 
ports.
    So it all works together with our partners. It starts 
overseas.
    I would say, also, that it is not just customs providing 
it. I have been out to the targeting centers, we have Coast 
Guard people who work with Customs and Border Protection and 
vice versa, sharing people and information to make sure that it 
is seamless across government.
    Mr. Cuellar. Thank you, Admiral, for the questions.
    Thank you, Madam Chairwoman. I yield back.
    Mrs. Miller. Does the gentleman from Detroit have any 
further questions?
    Mr. Clarke. Admiral, I am just concerned. I want to make 
sure you are able to upgrade your vessels, and aircraft, and 
information systems.
    So again, this is regarding deep water. Apparently it is 
indicated that the contract you had with the Integrated Coast 
Guard System, which is a joint venture between Northrop Grumman 
and Lockheed Martin, apparently expired in January of this 
year.
    I just wanted to find out, what is the successor to that in 
terms of the acquisition planning?
    Admiral Papp. Well, we brought it back into our 
conventional acquisition program. As I mentioned earlier, we 
have had a chance, over the last 4 to 5 years, to rebuild our 
acquisition program, primarily the people, and to update our 
acquisitions manual and get our people trained in the defense 
acquisition college.
    We have shown significant improvements there. What we have 
been able to do is we now have resident, the people to be able 
to negotiate directly with the companies that are producing 
either the aircraft or the ships.
    Before, we had to use a lead system integrator, because 
quite frankly, we didn't have the capacity within our small 
acquisition staff to be able to do that.
    We have got the lead on it now. We have reformed our 
acquisition policies and procedures. It has paid benefits in 
this fixed-priced contract, as I mentioned, for the National 
Security cutter and actually got better pricing on all the 
assets that we are doing because we are not paying a middle 
man.
    Mr. Clarke. Wonderful. You answered my question, appreciate 
it.
    Admiral Papp. Thank you, sir.
    Mrs. Miller. Thank you very much, again, Admiral, for 
coming. You have given us a lot of food for thought.
    I know I have got all my notes spread out all over here, 
about various things that you have said. As we think about our 
authorizing bill that is coming up this year.
    Yet, I made a number of notes about various things. But I 
am sure that we are going to want to talk to you a little bit 
more about as we get into the specific detail about what we 
need to help to resource you with adequately.
    We look forward to your report about the TWIC card. As 
well, if there are any kinds of legislative authorities that we 
haven't had a chance to talk about today, that you think we 
could help you with, or comes to you in a couple of days, 
please make sure that you get that information and suggestions 
to us.
    It is very important.
    As I say, we all have our missions. You have yours. We have 
ours in the Congress, to provide oversight and to help however 
we can to prioritize some of these resources and give you the, 
again, the kind of tools that you need to do your jobs so well, 
that you do.
    But we, again, thank you for your service to the Nation.
    This committee looks forward to continuing to work with you 
and the entire Coast Guard. I will notify the Members that the 
hearing record will be held open for 10 days for any additional 
questions that they may have.
    At this time, we stand adjourned.
    Admiral Papp. Thank you, ma'am, and thank you for your 
support.
    Mrs. Miller. Thank you.
    [Whereupon, at 11:22 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

     Questions Submitted by Chairman Candice S. Miller of Michigan
    Question 1a. Please provide us a status update on the 
Transportation Worker Identification Credential (TWIC) Program. Can you 
specifically address the following topics:
    What is the status of the TWIC Reader Pilot Program, the TWIC 
Reader Pilot Program report, and the TWIC Reader Rulemaking? When does 
DHS plan to issue the final TWIC Reader Rule?
    Question 1b. How is section 818 of the 2010 Coast Guard 
Authorization Bill (Pub. L. 111-281), which allows the escorting of 
workers without a TWIC card, being implemented?
    Question 1c. What recommendations do you have concerning the recent 
TWIC security deficiencies identified in GAO Report 11-657? Do you 
believe any additional legislation is needed, and if so, what would 
this consist of?
    Answer. The Transportation Worker Identification Credential (TWIC) 
program is managed jointly by the Transportation Security 
Administration (TSA) and the Coast Guard. The Coast Guard has 
responsibility for the promulgation of a TWIC reader rule; the TSA 
manages the TWIC Reader Pilot Program and will compile the TWIC Reader 
Pilot Program report.
    The Coast Guard is analyzing data from the TWIC Reader Pilot 
Program and the public comments received in response to its Advanced 
Notice of Proposed Rulemaking (ANPRM). Once the Coast Guard has 
completed that process, it will finish the development of its 
rulemaking. As the Coast Guard evaluates the economic and operational 
impact on the maritime industry, the Coast Guard will continue to seek 
input and recommendations to develop and propose regulations requiring 
industry compliance.
    The Coast Guard is in compliance with Section 818 of the Coast 
Guard Authorization Act of 2010. Throughout the implementation of the 
TWIC program, the Coast Guard has been proactive in formulating TWIC 
escort policies and procedures. However, it is important to note that 
the authority to act as an escort for the purposes of the TWIC program 
is granted by the owner/operator of a facility or vessel. The Coast 
Guard also plans to address this escorting provision through a 
Navigation Vessel Inspection Circular (NVIC) update that addresses 
procedures for industry to follow should they choose to grant access to 
individuals with a pending application for a TWIC.
    Finally, the Coast Guard does not believe additional legislation is 
needed to address recommendations made in the GAO Report 11-657. Since 
the GAO report was issued, DHS has initiated a comprehensive review of 
current internal controls with a specific focus on the controls 
highlighted in this report. DHS has established a high-level group to 
oversee the execution of the recommendations. The group has identified 
short- and long-term actions needed to address the points raised by GAO 
and is tracking implementation.
    Question 2. Since 9/11, Coast Guard cutters, aircraft, and boats 
have increased the amount of time they spend on Ports, Waterways, and 
Coastal Security (PWCS) by more than 900%. In order to grow the PWCS 
missions, have you had to decrease mission hours in other areas? I 
noticed that over the same period that PWCS missions increased by 970%, 
your counter-drug mission hours decreased by roughly 30%. Did you 
conduct less counter-drug operations because you needed to supplement 
PWCS?
    Answer. The September 11, 2001 terror attacks brought increased 
visibility to the Coast Guard's traditional port-security 
responsibilities and Ports, Waterways, and Coastal Security (PWCS) is a 
designated ``homeland security mission'' pursuant to the Homeland 
Security Act. The percentage of resource hours in support of the 
homeland security missions increased from fiscal year 2001 to fiscal 
year 2003, while the percentage of non-homeland security missions 
decreased during that same time period. Since fiscal year 2004, the 
percentage of resource hours devoted to the homeland security missions 
has gradually decreased, reflecting a more balanced approach to 
resource hour usage.
    The Coast Guard consumed approximately 250,000 more resource hours 
(aircraft, boats, and cutters) in fiscal year 2009 than it did in 
fiscal year 2000. This increase can be attributed to the addition of 
approximately 300 boats and 30 coastal patrol boats to our pre-9/11 
inventory level--most of the 970 percent increase cited can be linked 
to these new assets performing this statutory mission. Overall, small 
boats and patrol boats performed over 91 percent of all Coast Guard 
PWCS hours in fiscal year 2009. Hours expended for other missions can 
vary year to year due to many factors--asset availability, man-made, 
and natural disasters and other emergencies, emerging or declining 
threats, etc.--so a perceived shift to PWCS at the expense of other 
missions should not be assumed.
    The Coast Guard expended approximately 33,000 less counter-drug 
resource hours in fiscal year 2009 than it did in fiscal year 2000. 
Major cutters (high and medium endurance) have been the primary 
contributor to counter-drug mission hours over the past 10 years. Due 
to decreasing availability of these rapidly aging assets, major cutters 
provided over 18,000 fewer counter-drug hours in fiscal year 2009 than 
in fiscal year 2000 and is the primary driver in the observed downward 
trend of counter-drug hours. Additionally, the loss of 14 110 patrol 
contributed to lower counter-drug hour totals, as these assets were 
another provider of counter-drug hours. It is also important to note 
the use of Coast Guard Law Enforcement Detachments aboard Department of 
Defense and Allied vessels. While these Detachments contribute greatly 
to Coast Guard counter-drug efforts, their employment is not reflected 
in Coast Guard counter-drug asset resource hour totals. Coast Guard 
capacity in this mission area has diminished over this time frame due 
to condition of and availability of our cutter fleet, and was not due 
to result of shifting emphasis to other mission areas. However, 
declining Coast Guard asset availability during fiscal years 2000-2009 
did not significantly degrade Coast Guard counter-drug performance.
       Questions Submitted by Chairman Peter T. King of New York
    Question 1. I understand that you have begun a ``stem-to-stern'' 
review of the deployable specialized forces that will examine the 
capabilities needed within each of the different types of security 
teams of the Coast Guard. Do you anticipate the review recommending 
reducing the capabilities of the Maritime Safety and Security Teams 
(MSSTs) or the Maritime Security and Response Team (MSRT)?
    Answer. Recently, the Coast Guard undertook a comprehensive review 
of its Deployable Specialized Forces (DSF) to develop ``deployable 
specialized forces of varying capabilities'' to align with the 2010 
Coast Guard Authorization Act. Coast Guard DSF to include Maritime 
Safety & Security Teams, the Maritime Security Response Team, Tactical 
Law Enforcement Teams, Law Enforcement Detachment Teams, Port Security 
Units and the National Strike Force, provide a wide array of 
capabilities to meet complex maritime threats. As such, the Coast Guard 
must ensure that DSF personnel are properly trained, equipped, and 
supported. The Commandant recently directed a flag officer led 
comprehensive review of all DSF elements. To carry out this direction, 
the Deputy Commandant for Operations chartered a review that is being 
led by the Assistant Commandant for Marine Safety, Security, and 
Stewardship.
    The Coast Guard's DSF ``Stem to Stern Review'' is an internal 
review involving a broad cross-section of Coast Guard subject matter 
experts. Significant third-party involvement is not planned. The review 
team is conducting an analysis of:
  <bullet> A DSF Concept of Operations that defines how best to utilize 
        and integrate all DSF units into the broader Coast Guard 
        capabilities mix;
  <bullet> Updated training and standardization plans;
  <bullet> Recommended changes to Coast Guard personnel assignment 
        policies; and
  <bullet> An Integrated Program Management Plan for all DSF units.
    The review took a holistic approach to DSF to determine how the 
Coast Guard could best meet its requirements. The details about 
specific DSF units and their capabilities have not been fully 
developed.
    Question 2. The 2010 Coast Guard Authorization Act directed the 
creation of an additional ``enhanced'' team to serve as a Maritime 
Security and Response Team (MSRT) on the West Coast. How and when do 
you plan to implement this provision? Where will the second team be 
located and will it have similar capabilities to the first MSRT?
    Answer. The Coast Guard has not determined a location or 
composition for a second enhanced team. The Coast Guard's Deployable 
Specialized Forces ``Stem to Stern Review'' will provide information 
necessary to making such determinations, as discussed in the answer to 
Question No. 3.
    Question 3a. There are currently five Interagency Operations 
Centers (IOCs) located in Charleston, Hampton Roads, Jacksonville, 
Detroit, and Seattle.
    Do these centers provide a more integrated and secure law 
enforcement posture in these harbors?
    Question 3b. Why were these five locations chosen as opposed to 
other harbors?
    Question 3c. What specific authorities and resources would be 
needed to set up IOCs in the other Coast Guard sectors in our harbors 
with the highest levels of risk?
    Answer. The SAFE Port Act of 2006 mandated the establishment of 
Interagency Operations Centers (IOC) in all high-priority ports to 
better plan, coordinate, and execute operations among interagency 
partners, primarily in the context of maritime security. The Secretary 
has designated the Coast Guard as the lead agency to establish IOCs and 
directs that IOCs are to be ``organized to fit the security needs, 
requirements, and resources of the individual port area at which each 
is operating.'' Based on vulnerability assessments, high-priority ports 
were identified for purposes of FEMA grant-making (only seven port 
areas are considered Group 1, highest risk). The Coast Guard, in close 
collaboration with DHS offices, components, and other Government 
agencies in the ports, is in the process of more broadly improving 
maritime port interoperability through the establishment of the IOC 
framework at all key ports. ``All key ports'' is defined by Coast Guard 
as the major ports represented by 35 Coast Guard Sector Commands. These 
35 Sectors encompass 100 percent of the U.S. maritime ports and 
borders. In the near future, the Coast Guard plans to declare at least 
25 of these ports to have established an initial operating capability 
in their IOCs.
    The five locations identified above have been some of the locations 
of preliminary and/or prototype IOC efforts with other agencies in the 
last 5 to 7 years. The lessons learned regarding integrated and secure 
operations (law enforcement as well as all hazards, all threats) at 
these locations are being incorporated into the overall IOC concept 
being deployed Nation-wide as stated above.
    Question 4. What role does the Coast Guard have in the Port 
Security Grant Program? How important do you feel Port Security Grants 
are in ensuring the security of our harbors?
    Answer. Federal Emergency Management Agency Grant Programs 
Directorate (FEMA/GPD) is the grant administrator for the Port Security 
Grant Program (PSGP) and is responsible for designing and operating the 
administrative mechanisms needed to implement and manage the program. 
The Coast Guard provides FEMA/GPD subject matter expertise on maritime 
security issues.
    The PSGP funds eligible projects that close or mitigate maritime 
security risk gaps and provides funds for maritime transportation 
infrastructure security activities to implement Area Maritime 
Transportation Security Plans (AMSPs) and facility security plans 
(FSPs) among port authorities, facility operators, and State and local 
government agencies required to provide port security services. Owners/
operators of Maritime Transportation Security Act of 2002 (MTSA)-
regulated facilities and vessels are the first line of detection and 
defense against a terrorist attack in the ports. The PSGP provides 
funding to offset the costs of maritime security risk mitigation 
projects to private and public security providers and incident 
mitigation responders. The program supports increased port-wide risk 
management, enhanced domain awareness, training and exercises, 
expansion of port recovery and resiliency capabilities, and further 
capabilities to prevent, detect, respond to, and recover from attacks 
involving improvised explosive devices (IEDs) and other non-
conventional weapons.
    Question 5. What programs does the U.S. Coast Guard have in place 
or under development to assure that a shielded nuclear bomb or nuclear 
materials for a dirty bomb do not reach a U.S. seaport?
    Answer. The Coast Guard leverages its unique maritime security 
authorities, capabilities, and partnerships to mitigate risk and 
improve security in our domestic ports, on the high seas, and in ports 
abroad. The Coast Guard's overarching strategy is to increase maritime 
border security through a layered security system that begins beyond 
the country's physical borders. The Coast Guard conducts inspections of 
foreign ports, maintains maritime domain awareness, employs cutters, 
aircraft and boats offshore, conducts inspections and boardings of 
vessels, in the Nation's ports the Coast Guard, along with our Federal, 
State, local, and Tribal partners, working in concert with port 
stakeholders patrol our waters and critical infrastructure, conduct 
vessel escorts, and inspect vessels and facilities. The Coast Guard's 
mix of cutters, aircraft, and boats--all operated by highly proficient 
personnel--allow the Coast Guard to maximize its unique authorities to 
exercise layered and effective security through the entire maritime 
continuum from overseas to the critical ports within our homeland.
    Furthermore, the Coast Guard works closely with the Domestic 
Nuclear Detection Office (DNDO), the Department of Energy, Customs and 
Border Protection and other Federal agencies to ensure that our program 
aligns with and contributes to on-going efforts toward building a 
layered, integrated, defense in-depth global nuclear detection 
architecture.
    In 2003, the Coast Guard implemented a Coast Guard-wide Maritime 
Radiation Detection Program. The program provides all Coast Guard 
boarding and inspection teams with human portable radiation detectors 
with the goal to detect and interdict radiological threats as far 
offshore as possible and to expand boardings to counter the small 
vessel threat. Specifically, USCG nuclear/radiation detection 
capability includes over 5,000 pager-sized, personnel radiation 
detectors, commonly referred to as PRDs, over 800 hand-held, 
radioisotope identification devices (RIIDs) and over 200 backpack type, 
wide-area radiological search systems. Coast Guard radiation detection 
and identification equipment is deployed on: 210 cutters; 190 boat 
stations; 35 Sectors; 11 Maritime Safety and Security Teams; the 
Maritime Security Response Team; 2 Tactical Law Enforcement Teams; 3 
National Strike Force Strike Teams, and 60 other Operational/Training 
Units. This capability is sustained and strengthened by partnerships 
with other Federal, State and local, private and international 
organizations. This layered approach to security, leverages technology 
and partnerships to enhance detection consistent with the goals of DHS' 
Small Vessel Security Strategy.
    Overall, USCG strategy, policy, tactics, techniques, and procedures 
are in alignment with the DNDO's Global Nuclear Detection Architecture 
(GNDA) and the Coast Guard's Maritime Radiation Detection Program is 
consistent with the requirements of National Security Presidential 
Directives--43/Homeland Security Presidential Directive--14, and 
Presidential Decision Directive--41, Nuclear and Radiological Alarm 
Adjudication and Resolution Process, which is applicable to both 
domestic and international situations.
         Questions Submitted by Hon. Michael T. McCaul of Texas
    Question 1. The Department of Homeland Security has reported that 
intelligence seized from the bin Laden raid showed that al-Qaeda is 
interested ``in targeting oil tankers and commercial infrastructure at 
sea.'' There is a large amount of oil and energy production 
infrastructure within the Port of Houston. What is the Coast Guard 
doing in response to this heightened threat?
    Answer. The information derived from the bin Laden raid with regard 
to ``targeting oil tankers and commercial infrastructure'' was not 
specifically focused on U.S. ports. The information revealed al-Qaeda's 
focus was broad with the goal of hindering U.S. oil supplies. This 
threat posed to oil tankers and commercial infrastructure by al-Qaeda 
is not new.
    The Coast Guard uses a layered security approach to counter 
maritime risks and threats. This approach takes into account that the 
marine industry operates under rules and regulations spelled out in the 
International Ship and Port Facility Security Code (an international 
convention) or the Maritime Transportation Security Act (domestic 
regulations), in an effort to prevent terrorist incidents from 
occurring on commercial ships and in port facilities. If actionable 
intelligence is received, and more security measures are necessary, 
additional requirements or guidance is conveyed through a Coast Guard-
issued Maritime Security (MARSEC) Directive, Port Security Advisory, or 
through ad hoc industry meetings by leveraging existing relationships 
with the International Maritime Organization (IMO), or through close 
relationships with trade organizations such as Intertanko, the Baltic 
and International Maritime Council (BIMCO), and Recognized Security 
Organizations. The Coast Guard can issue MARSEC directives to U.S. 
flagged vessels operating anywhere in the world, and can impose 
additional security measures for foreign flag vessels when they operate 
in U.S. waters. The proper execution of vessel and facility security 
plans, by U.S. and foreign operators can help provide safeguards 
against terrorist activity.
    Immediately following the raid, the Coast Guard coordinated efforts 
with the Department of Homeland Security (DHS) to develop the Joint 
Intelligence Bulletin that was shared with oil and natural gas industry 
members. Furthermore, DHS hosted, and the Coast Guard participated in, 
a teleconference and a meeting with oil and natural gas industry 
members to discuss the intelligence and remind industry members to 
remain vigilant when implementing their security plans.
    Question 2. I have received the Coast Guard's records concerning 
drug and migrant interdictions over the past 15 years. I am concerned 
that in 2010, the Coast Guard seized less than a third of the cocaine 
that the service recovered in 2005. Likewise, the size of marijuana 
seizures and migrant interdictions have both decreased by more than 70% 
from previous high levels. Why do you think your seizure levels have 
dropped so dramatically? Is it because more drugs and migrants are 
transiting across the land borders? Is it because your assets are 
ageing and are not able to deploy or remain on-scene as long as in the 
past? Or is it because Coast Guard assets are spending more time 
focusing on different missions, such as port security, and thus they 
are not spending as much time on drug and migrant interdiction?
    Answer.
Contraband Interdiction Decrease
    The Coast Guard utilizes a ``defense in depth'' strategy by 
forward-deploying cutters and aircraft close to the source zone of the 
contraband and at the arrival locations near U.S. maritime borders in 
the United States. Additionally, the Coast Guard leverages U.S. Navy 
and Allied nation ships to enhance presence and expand interdiction 
opportunities by embarking law enforcement detachments on these 
platforms. Historically, approximately 90 percent of all cocaine moving 
toward the United States from South America travels via maritime routes 
in the transit zone to Central America and Mexico. The narcotics are 
then predominantly transported via land routes to, and over, the U.S.-
Mexico Border. The ``defense in depth'' strategy allows the Coast 
Guard, working with the U.S. Southern Command via Joint Interagency 
Task Force--South (JIATF-S), to deploy assets to interdict the maritime 
conveyances prior to them reaching their transshipment destinations in 
Central America and Mexico.
    The Coast Guard removed 32.3 metric tons of marijuana in fiscal 
year 2009, which was the most removed since fiscal year 1997. The 16.5 
metric tons of marijuana that the Coast Guard removed in fiscal year 
2010 is well above the 10-year average, and is the second-highest since 
2002.
    The Coast Guard attributes the significant decline of contraband 
removed in fiscal year 2010 to the following factors:
  <bullet> Reduced Coast Guard asset/resource availability due to 
        equipment casualties and increased maintenance demands 
        associated with operating an aging fleet;
  <bullet> Major contingency response operations diverting surface and 
        air (detection and interdiction) assets from the drug 
        interdiction mission (i.e., earthquake in Haiti and the 
        Deepwater Horizon oil spill in the Gulf of Mexico);
  <bullet> Increasingly sophisticated and evolving Drug Trafficking 
        Organization (DTO) tactics;
  <bullet> Drop in total non-commercial maritime flow of cocaine 
        towards the United States.
    A significant increase in major casualties and unscheduled 
maintenance days caused by the advancing age of the Coast Guard's 
cutter fleet and aircraft reduced the availability of deployable 
assets, both maritime patrol aircraft (MPA) and major cutters, 
operating in the drug transit zone in support of JIATF-S. In fiscal 
year 2010, JIATF-S lost 548 major cutter days as a result of 
unscheduled vessel maintenance. Additionally, the early loss of three 
179 patrol craft due to structural issues in fiscal year 2010 had a 
negative impact on overall cutter patrol days, limiting the available 
hours for mission allocation.
    The Coast Guard's response to the earthquake in Haiti and the 
Deepwater Horizon oil spill in the Gulf of Mexico also affected 
resource hour allocation. Many of the Coast Guard's major cutters, MPA, 
and ship capable helicopters were deployed or diverted in support of 
these two responses. JIATF-S lost an estimated 675 MPA hours and 305 
cutter days as a result. The Helicopter Interdiction Tactical Squadron 
(HITRON), which is the Coast Guard unit primarily responsible for 
providing Airborne Use of Force (AUF), diverted aviation detachments 
from counter-drug operations in both the Eastern Pacific and Western 
Caribbean to support relief efforts for the earthquake in Haiti. 
Additionally, HITRON provided 219 days of aerial support to Deepwater 
Horizon, which was originally designated for support to JIATF-S.
    Drug Trafficking Organizations (DTO) continuously modify their 
smuggling methods and routes to thwart law enforcement counternarcotics 
efforts. An example is the advent of Self Propelled Fully Submersible 
(SPFS) vessels to smuggle large loads (6-10 metric tons) via offshore 
routes. The SPFS' ability to smuggle large loads, travel submerged only 
needing to surface for a few hours each day to recharge batteries, or 
submerge for short periods to avoid detection, greatly challenges the 
Coast Guard's ability to detect and intercept these stealth craft. 
Another current trend has fishing vessels leaving port along with 2 to 
6 panga-style go-fast vessels, a few of which will engage in legitimate 
fishing while others will bounce from fishing vessel to fishing vessel 
carrying small loads of cocaine in hidden compartments towards their 
final offload destination. All the pangas will scatter if a law 
enforcement asset is detected nearby, making it extremely difficult to 
determine which one is the drug-laden boat. Additionally, DTOs 
continued to use go-fast vessels primarily travelling the Central 
American littoral regions with smaller loads of drugs. By using more 
vessels with fewer drugs aboard each, they reduce the risk of losing 
large loads. Both tactics challenge the limited law enforcement assets' 
ability to cover the extremely large transit zone. Consequently, while 
the number of vessels seized has remained fairly constant, the average 
load size removed per event for the Coast Guard over the past 4 years 
has steadily decreased from 5,473 lbs per event in fiscal year 2007 to 
1,659 lbs per event in fiscal year 2010, nearly a 70 percent reduction.
    Last, reporting indicates there was a reduction in cocaine being 
smuggled through the transit zone from 1,067 metric tons via non-
commercial maritime means in fiscal year 2009 to 682 metric tons in 
fiscal year 2010, a 36 percent reduction. This is likely a result of 
more effective supply reduction efforts combined with improved law 
enforcement successes in source countries.
Migrant Interdiction Decrease
    Decreases in migrant interdictions are a function of a decrease in 
immigration to the United States combined with improved law enforcement 
results and successful prosecutions of smugglers. Migrant flow has 
steadily decreased since 2005, primarily due to the following reasons:
  <bullet> Implementation of biometrics use in the Mona Pass in 2006, 
        which has enabled prosecutions and reduced recidivism.
  <bullet> Passage of law in Dominican Republic, which provides for 
        prosecution of smugglers (2006).
  <bullet> Reduced job opportunities in United States due to economic 
        downturn (Dec 2007-Jul 2009).
  <bullet> Successful prosecution of smugglers in South Florida.
         Question Submitted by Hon. Benjamin Quayle of Arizona
    Question. I understand that the Coast Guard canceled its own UAV 
development program in 2007, and is now partnering with the Navy and 
CBP to test different types of UAVs. Does the Coast Guard plan to 
procure any UAVs in the future, and if so, when? How will these assets 
enhance maritime security?
    Answer. The Coast Guard terminated the Deepwater Vertical Takeoff 
and Landing Unmanned Aerial Vehicle (VUAV) procurement, Eagle Eye, in 
June 2007 due to developmental risks and projected costs above the 
Acquisition Program Baseline. The Coast Guard's procurement strategy is 
to acquire cutter-based and mid-altitude land-based UAS, while 
emphasizing commonality with existing Department of Homeland Security 
and Department of Defense programs. To that end, the Coast Guard is now 
in the pre-acquisition ``Need'' phase, and will continue to progress 
pending ``Analyze/Select'' phase funding.
    Land and cutter-based UASs, with their ability to provide 
persistent, wide-area maritime surveillance in challenging operational 
environments, serve as a cost-effective means to provide surveillance 
capability when and where it is most needed. Considering these 
characteristics, the Coast Guard is evaluating existing cutter-based 
and mid-altitude land-based UAS options. Cutter-based UAS will provide 
tactical commanders with a short-range surveillance capability, 
employing state-of-the-art sensors, communications suites, and 
increased persistence, providing greater maritime surveillance, 
detection, and communications capability, and effectively extending a 
cutter's surveillance coverage by as much as 225 percent. Land-based 
UAS will provide strategic commanders with a wide-area surveillance 
capability, employing state-of-the-art sensors, communications suites, 
and increased persistence with sorties in excess of 18 hours. In either 
case, these capabilities provide far greater surveillance time per 
sortie than their manned counterparts at a fraction of the cost.
          Questions Submitted by Hon. Scott Rigell of Virginia
    Question 1. I was surprised to hear that you recently canceled the 
Coast Guard's joint training with the Navy SEALs. Some believe that 
this was an opportunity to build up counter-terrorism expertise that 
could be brought back to the Coast Guard and used to enhance your law 
enforcement and security teams, including the Maritime Safety and 
Security Teams (MSSTs), and especially the Maritime Security and 
Response Team (MSRT), which operates out of Chesapeake, VA. Can you 
tell me why this program was cancelled?
    Answer. The program has not been cancelled. There are currently 
three Coast Guard personnel operational and two in training with the 
Navy SEALs. The Coast Guard did not assign any new personnel to the 
SEALs in 2010 or 2011, and no decision has yet been made for 2012. The 
personnel in the program have 5 to 6 years remaining before they return 
to the Coast Guard.
    In addition, the Coast Guard is working with the Naval Special 
Warfare Training Center in Coronado, CA to determine which training 
courses there may be appropriate for Coast Guard Deployable Specialized 
Forces personnel. Where we can identify synergies within appropriate 
courses, we will use the training to help foster our continued fruitful 
working relationship between Naval Special Warfare Homeland Defense 
missions and Coast Guard Homeland Security missions.
    Question 2. America's Waterways Watch (AWW) is the equivalent of 
the ``See Something, Say Something'' campaign for recreational and 
commercial boaters. However, unlike the ``See Something, Say 
Something'' campaign, AWW does not grant immunity from liability for 
people who report suspicious activities. How important is it for 
boaters to have immunity if they report suspicious activities? Do you 
feel that boaters may choose not to report suspicious behavior if they 
feel that there may be repercussions?
    Answer. The general public, through the America's Waterway Watch 
program, provide critical assistance to the Coast Guard in its efforts 
to disrupt terrorist activities against the homeland. However, persons 
who report suspicious activities may always face potential litigation. 
The degree to which they might seek protection is governed by that 
which might be available under law.
       Questions Submitted by Hon. Jeff Duncan of South Carolina
    Question 1. The DHS Small Vessel Security Implementation plan was 
published earlier this year. As I am sure you know, there are a lot of 
recreational boaters in the Charleston area. How are we partnering with 
the boating public to mitigate this threat? What resources are being 
tied to the DHS Small Vessel Security Implementation plan to ensure it 
is effective?
    Answer. Charleston actively engages in building strong partnerships 
and fostering open dialogue among all Federal, State, and local 
authorities in conjunction with engaging the private sector and raising 
awareness of the general public. Addressing the four goals of the plan, 
Charleston applies the following:
    1. Develop and leverage a strong partnership with the small vessel 
community: Sector Charleston leverages the use of the local Auxiliary 
(roughly 800 personnel) and Sector Prevention staff with promoting the 
``America's Waterway Watch.'' This National awareness program informs 
and stresses public notification to Government officials when 
suspicious activity is witnessed. The Auxiliary is also heavily engaged 
in educating our local boating community through instructional programs 
and outreach at key areas such as marinas, dive shops, and marine 
supply vendors. Also, through numerous outreaches in public affairs 
(the latest being ``Safe Boating Week''), Sector Charleston continues 
to stay at the forefront with boating safety and security issues with 
the public.
    2. A coherent plan with a layered, state-of-the-art approach: 
Through the SeaHawk Interagency Operations Center (IOC), the unified 
command (UC) meets daily to review all source intelligence and 
information concerning pending vessel arrivals. The UC develops a 
common risk picture, coordinates activities between agencies, creates a 
risk-based resource allocation plan and schedules multi-agency 
prevention, deterrence, and information-gathering operations.
    Sector Charleston created the small vessel threat working group 
that incorporates the collaboration of Federal, State, and local 
authorities, focused on reducing the threat of small vessels in the 
Sector AOR. This is accomplished by coordinating efforts and conducting 
planned operations that identify, interdict, and inspects targeted 
vessels during times of heavy traffic on the ICW and within the harbor.
    3. Leverage technology to enhance the ability to detect, determine 
intent, and, when necessary, interdict suspicious small vessels: At 
this stage, Sector Charleston relies on the patrols of the CG and local 
marine units for identification of possible (small boat) threats. Some 
local authorities have maritime radiation and nuclear detection 
equipment. The Sector employs the ``Hawkeye'' system that incorporates 
the use of cameras and radar. This system was designed primarily for 
detection of commercial traffic and has limited ability to track small, 
recreational traffic. This system does not extend past the Port of 
Charleston. There have been on-going strategies through the use of Port 
Security Grants and the AMSC to enhance the technology at the Sector. 
Over the last 10 years, the AMSC has approved funding of five patrol 
vessels (19-27) and repowering eight existing patrol vessels to LE 
agency marine units in the Metro-Charleston area. Additional cameras 
for the SeaHawk wireless network have also been approved to extend 
systems coverage.
    4. Enhance coordination, cooperation, and communication with all 
partners: The SeaHawk IOC focuses on day-to-day interagency 
collaboration; integration of ``agency-unique, yet complementary'' 
operations; the sharing of field-level intelligence to create 
situational awareness and the daily risk-based allocation of Federal, 
State, and local maritime safety and security resources. In addition, 
Sector Charleston established a local ``LE Council'' that meets the 
last Thursday of every month. Membership consists of personnel from all 
local and State law enforcement agencies, as well as Coast Guard 
personnel from Sector and Stations. Meetings are designed to provide a 
forum by which all parties can communicate and share ideas and needs. 
Operations are planned, high-profile events are discussed, and general 
items of interest are addressed to the group for further discussion.
    Question 2. Is the USCG currently working towards standard 
operating procedures for State and local law enforcement boats and 
teams to ensure optimal results? Is this a problem with the sharing of 
information, or simply a problem with non-standard tactics? What can we 
do to help rectify this problem?
    Answer. The Coast Guard is developing standard operating procedures 
for Federal and non-Federal maritime law enforcement officers to 
address, in part, the absence of a uniform standard of training.
    Prior to 2008, the Coast Guard and its partners identified two 
operational gaps hindering cooperative Federal/non-Federal maritime law 
enforcement and, by extension, their collective force-multiplier 
effect: (1) The absence of a uniform standard of training, and (2) the 
need for training in tactical operations at all levels of government. 
In 2008, the National Association of State Boating Law Administrators 
(NASBLA), partnering with the Coast Guard Office of Boat Forces, 
launched the Boat Operations and Training Program (BOAT) Program, a 
National training system designed to develop and compliment the 
capabilities of maritime law enforcement officers at all levels of 
government. The BOAT Program, modeled on the Coast Guard's boat forces 
training framework, provides a de facto National standard for the 
training, qualification, credentialing, and typing of maritime law 
enforcement and rescue personnel. The adoption and implementation of 
the BOAT Program effectively provides a National standard, and such 
standardization should facilitate the interaction of maritime law 
enforcement agencies and their collective ability to act as force 
multipliers. In the interim, the Coast Guard continues to develop 
operating procedures for Federal and non-Federal maritime law 
enforcement officers.
    Question 3a. This subcommittee has done extensive work on achieving 
``operational control'' of the Southwest and Northern Borders.
    In your opinion, what would ``operational control'' of the maritime 
border look like, in accordance with the definition of ``operational 
control'' from the Secure Fence Act of 2006?
    Question 3b. Do you feel we have achieved ``operational control'' 
of the maritime borders? If not, what additional resources would be 
needed to do so?
    Answer. The Secure Fence Act of 2006 defines operational control as 
``the prevention of all unlawful entries into the United States, 
including entries by terrorists, other unlawful aliens, instruments of 
terrorism, narcotics, and other contraband''. While the Coast Guard has 
not achieved full operational control of the maritime borders according 
to this definition, the Coast Guard's Maritime Governance Model is 
designed to achieve this control through a layered defense consisting 
of intelligence, maritime domain awareness, and interdiction assets. 
Maritime regimes, Maritime Domain Awareness, and operational 
capabilities are the interconnecting parts that shape the strategy. The 
fundamental concept of the Coast Guard's Maritime Governance model is a 
solid grounding in risk-informed decision-making. The use of risk-
informed decision-making allows the Coast Guard to maximize the 
employment of its limited resources to address the highest-risk targets 
entering the United States through the maritime border.
    The Coast Guard developed a High Interest Vessel evaluation 
process, imposes conditions of entry, and established Annex I to the 
Maritime Operation Threat Response plan addressing the highest-risk 
crew members, therefore focusing the limited resources on boarding only 
the highest-risk vessels. In accordance with our multi-mission 
authorities, the Coast Guard field units have met these requirements by 
diverting operational assets when needed to higher-risk security 
missions. These actions have improved the Coast Guard's ability to 
deter, detect, and disrupt any potential unlawful entry into the United 
States via the maritime border, but operational gaps will always exist 
given the nature and extent of the U.S. coastline.
      Question Submitted by Ranking Member Henry Cuellar of Texas
    Question. The Coast Guard Authorization Act of 2010 (Pub. L. No. 
111-281) included a provision that required the Coast Guard to prepare 
a mission requirement analysis for the navigable portions of the Rio 
Grande. This analysis was due to Congress on January 15, 2011. Please 
provide the committee with the status of this mission requirement 
analysis, including the estimated date of delivery to Congress.
    Answer. The draft Rio Grande Mission Analysis Requirement is 
undergoing final review by the Coast Guard. Following the testimony of 
the Commandant before the House Homeland Security Committee, the Coast 
Guard updated the report to provide additional information to more 
fully address expanded Coast Guard presence on the Rio Grande. The 
updated report has been transmitted to the administration for review 
and release.
 Question Submitted by Ranking Member Bennie G. Thompson of Mississippi
    Question. On behalf of Congressman Richmond, Ranking Member 
Thompson would like Admiral Papp to respond in writing with his 
assessment of the Corps of Engineers' plan for dredging the Mississippi 
River, especially the Lower Mississippi River. Mr. Richmond would also 
like Admiral Papp to discuss whether the lack of dredging is making the 
river less safe for large ships to travel.
    Answer. In the budget, the U.S. Army Corps of Engineers (USACE) 
uses performance measures to allocate the available operation and 
maintenance funding, which is limited Nation-wide. The Coast Guard 
works closely with USACE and other key stakeholders to maintain 
navigation safety and mitigate risks due to shoaling wherever possible 
to minimize the potential for marine casualties. The safety of the 
waterway and transiting vessels is paramount and the Coast Guard, 
working with the USACE and vessel pilots, continually analyzes risk 
based on prevailing channel depth and width and takes appropriate 
measures to ensure maximum safety on the river. USACE provides the 
maximum channel dimensions possible within available funds and provides 
channel surveys to navigation stakeholders, who then determine what 
vessels can safely transit the channel and the conditions under which 
the vessel transits will be made.
    For example, conditions in a waterway may require larger ships to 
wait for high tide, light load the vessel, or offload a portion of 
their cargo on to smaller vessels or barges, to allow the vessel to 
transit the waterway safely. If the channel shoals, vessel draft 
restrictions, vessel passing restrictions, or navigation during 
daylight hours may be imposed to maintain safe navigation.
    In the past, in response to changes in channel conditions in the 
waterway, vessel draft and navigation restrictions have been imposed at 
Southwest Pass and elsewhere in the Mississippi River system in order 
to maintain navigational safety. Based on channel conditions, which are 
dynamic, and the dredging performed by the Corps, risks due to shoaling 
could increase or decrease in the future. In that event, the maritime 
community may see a change in draft and navigation restrictions 
reflecting what is needed to mitigate the risk.
        Question Submitted by Hon. Loretta Sanchez of California
    Question. The United States Coast Guard Authorization Act of 2010 
mandates that the Coast Guard coordinate with port owners and operators 
to provide escorted access for any TWIC applicant who has a pending 
TWIC application and needs to perform work in a secure or restricted 
area. I have heard from individuals within the port industry that Coast 
Guard has not changed its escorting policy and instead plans to simply 
reissue voluntary guidance. Is Coast Guard, in accordance with the law, 
coordinating with port owners and operators to ensure that TWIC 
escorting is being provided? If so, how is this being done and is Coast 
Guard reaching out to employees and to labor organizations to help both 
groups understand the TWIC escorting process and requirements?
    Answer. The Coast Guard is in compliance with the law to ensure 
that Transportation Worker Identification Credential (TWIC) escorting 
is being provided by coordinating with port owners and operators during 
facility inspections and industry outreach efforts, such as Area 
Maritime Security Committee meetings and Port Wide Industry Day 
meetings. Throughout the implementation of the TWIC program, the Coast 
Guard has been proactive in formulating TWIC escort policies and 
procedures. However, it is important to note that the authority to act 
as an escort for the purposes of the TWIC program is granted by the 
owner/operator of a facility or vessel.
    The Coast Guard provided the following TWIC escort related 
documents to industry:
  <bullet> Navigation and Inspection Circular 03-07 ``Guidance for the 
        Implementation of the TWIC Program in the Maritime Sector;''
  <bullet> TWIC Program: Small Entity Guide of Applicants;
  <bullet> TWIC Program: Small Entity Guide for Owners and Operators; 
        and
  <bullet> Five TWIC/Maritime Transportation Security Act (MTSA) Policy 
        Advisory Council (PAC) Decisions related to escorting (PAC 02-
        07, 02-08, 03-08, 02-09, and 03-09).
    The Coast Guard guidance to the maritime industry provides facility 
operators with options to meet escort requirements; however, the TWIC 
escort provisions are not intended to be used in lieu of the TWIC. 
Workers requiring frequent access to MTSA-regulated facilities and 
vessels should obtain a TWIC. Therefore, the facility operator may 
decide to not provide escorting procedures for these workers, or may 
limit the amount of time escorts are provided.
         Question Submitted by Hon. Sheila Jackson Lee of Texas
    Question. I am concerned with the continued delays with full 
implementation of the TWIC program. Please provide the committee with 
an updated time line for full implementation of the program. Your 
response should include a delivery date for the TWIC pilot 
Congressional report and an anticipated date for release of the notice 
of proposed rulemaking (NPRM) for the TWIC reader rule.
    Answer. The Transportation Worker Identification Credential (TWIC) 
program is managed jointly by the Transportation Security 
Administration (TSA) and the Coast Guard. The Coast Guard has 
responsibility for the promulgation of a TWIC reader rule; the TSA 
manages the TWIC Reader Pilot Program and will compile the TWIC Reader 
Pilot Program report.
    The Coast Guard is analyzing data from the TWIC Reader Pilot 
Program and the public comments received in response to its Advanced 
Notice of Proposed Rulemaking (ANPRM). Once the Coast Guard has 
completed that process, it will finish the development of its 
rulemaking. As the Coast Guard evaluates the economic and operational 
impact on the maritime industry, the Coast Guard will continue to seek 
input and recommendations to develop and propose regulations requiring 
industry compliance.

                                 <all>

</pre></body></html>
